<html>
<title> - HOUSING OPTIONS IN THE AFTERMATH OF HURRICANES KATRINA AND RITA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                    HOUSING OPTIONS IN THE AFTERMATH
                     OF HURRICANES KATRINA AND RITA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2005

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 109-67



                    U.S. GOVERNMENT PRINTING OFFICE
26-023                      WASHINGTON : 2006
__753________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 BARNEY FRANK, Massachusetts
RICHARD H. BAKER, Louisiana          PAUL E. KANJORSKI, Pennsylvania
DEBORAH PRYCE, Ohio                  MAXINE WATERS, California
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
MICHAEL N. CASTLE, Delaware          LUIS V. GUTIERREZ, Illinois
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             MELVIN L. WATT, North Carolina
ROBERT W. NEY, Ohio                  GARY L. ACKERMAN, New York
SUE W. KELLY, New York, Vice Chair   DARLENE HOOLEY, Oregon
RON PAUL, Texas                      JULIA CARSON, Indiana
PAUL E. GILLMOR, Ohio                BRAD SHERMAN, California
JIM RYUN, Kansas                     GREGORY W. MEEKS, New York
STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
DONALD A. MANZULLO, Illinois         DENNIS MOORE, Kansas
WALTER B. JONES, Jr., North          MICHAEL E. CAPUANO, Massachusetts
    Carolina                         HAROLD E. FORD, Jr., Tennessee
JUDY BIGGERT, Illinois               RUBEN HINOJOSA, Texas
CHRISTOPHER SHAYS, Connecticut       JOSEPH CROWLEY, New York
VITO FOSSELLA, New York              WM. LACY CLAY, Missouri
GARY G. MILLER, California           STEVE ISRAEL, New York
PATRICK J. TIBERI, Ohio              CAROLYN McCARTHY, New York
MARK R. KENNEDY, Minnesota           JOE BACA, California
TOM FEENEY, Florida                  JIM MATHESON, Utah
JEB HENSARLING, Texas                STEPHEN F. LYNCH, Massachusetts
SCOTT GARRETT, New Jersey            BRAD MILLER, North Carolina
GINNY BROWN-WAITE, Florida           DAVID SCOTT, Georgia
J. GRESHAM BARRETT, South Carolina   ARTUR DAVIS, Alabama
KATHERINE HARRIS, Florida            AL GREEN, Texas
RICK RENZI, Arizona                  EMANUEL CLEAVER, Missouri
JIM GERLACH, Pennsylvania            MELISSA L. BEAN, Illinois
STEVAN PEARCE, New Mexico            DEBBIE WASSERMAN SCHULTZ, Florida
RANDY NEUGEBAUER, Texas              GWEN MOORE, Wisconsin,
TOM PRICE, Georgia                    
MICHAEL G. FITZPATRICK,              BERNARD SANDERS, Vermont
    Pennsylvania
GEOFF DAVIS, Kentucky
PATRICK T. McHENRY, North Carolina
CAMPBELL, JOHN, California

                 Robert U. Foster, III, Staff Director
           Subcommittee on Housing and Community Opportunity

                     ROBERT W. NEY, Ohio, Chairman

GARY G. MILLER, California, Vice     MAXINE WATERS, California
    Chairman                         NYDIA M. VELAZQUEZ, New York
RICHARD H. BAKER, Louisiana          JULIA CARSON, Indiana
WALTER B. JONES, Jr., North          BARBARA LEE, California
    Carolina                         MICHAEL E. CAPUANO, Massachusetts
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont
PATRICK J. TIBERI, Ohio              STEPHEN F. LYNCH, Massachusetts
GINNY BROWN-WAITE, Florida           BRAD MILLER, North Carolina
KATHERINE HARRIS, Florida            DAVID SCOTT, Georgia
RICK RENZI, Arizona                  ARTUR DAVIS, Alabama
STEVAN, PEARCE, New Mexico           EMANUEL CLEAVER, Missouri
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
MICHAEL G. FITZPATRICK,              BARNEY FRANK, Massachusetts
    Pennsylvania
GEOFF DAVIS, Kentucky
CAMPBELL, JOHN, California
MICHAEL G. OXLEY, Ohio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    December 8, 2005.............................................     1
Appendix:
    December 8, 2005.............................................    53

                               WITNESSES
                       Thursday, December 8, 2005

Garratt, David E., Acting Director, Recovery Division, Federal 
  Emergency Management Agency, Department of Homeland Security...    12

                                APPENDIX

Prepared statements:
    Oxley, Hon. Michael G........................................    54
    Ney, Hon. Robert.............................................    56
    Garratt, David E.............................................    58

              Additional Material Submitted for the Record

Hon. Robert Ney:
    Joint statement from the National Community Development 
      Association, et al.........................................    72
    Letter from the National Multi Housing Council and the 
      National Apartment Association.............................    78
Hon. Barney Frank:
    Statement from the National Low Income Housing Coalition.....    80
    Letter from the National Association of Housing and 
      Redevelopment Officials....................................    81
Hon. Al Green:
    Three letters from Hon. Bill White, Mayor, City of Houston, 
      Texas......................................................    84
Hon. David Scott:
    List of News Headlines.......................................    93


                    HOUSING OPTIONS IN THE AFTERMATH
                     OF HURRICANES KATRINA AND RITA

                              ----------                              


                       Thursday, December 8, 2005

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2128, Rayburn House Office Building, Hon. Robert W. Ney 
[chairman of the subcommittee] presiding.
    Present: Representatives Ney, Baker, Neugebauer, Davis, 
Waters, Velazquez, Carson, Lee, Scott, Frank, Davis, Cleaver, 
and Green.
    Also present: Representatives Melancon and Watt.
    Chairman Ney. The Housing Subcommittee will come to order, 
and the hearing today is on the housing options in the 
aftermath of Hurricanes Katrina and Rita.
    The Housing Subcommittee meets this morning to discuss the 
Federal Government's response to the emergency housing needs of 
residents affected by Hurricanes Katrina and Rita; 
specifically, the Federal Emergency Management Agency, FEMA, 
hotel program for evacuees and the role of the HUD housing 
programs in response to disasters.
    Also, we had hoped, I had personally hoped to include the 
Department of Housing and Urban Development in today's panel, 
but due to some scheduling conflicts, they were unable to 
attend. However, I was assured by the HUD Secretary last Monday 
that the Department would be able and available to participate 
in another hearing on this matter. I think it is going to be 
critical. The Department is going to have to make someone 
available to be here to discuss this important issue. So we are 
going to continue--
    Mr. Frank. Mr. Chairman.
    Chairman Ney. Yes, Mr. Frank.
    Mr. Frank. I wonder if at this point I might be recognized 
for 2 minutes.
    Chairman Ney. The gentleman is recognized.
    Mr. Frank. As you know, and I gave you notice, and I 
appreciate very much the efforts that you and the Chairman of 
the Full Committee have made to have a HUD representative, but 
it is unthinkable that we should be without a HUD 
representative on a housing policy matter. It is also a 
disadvantage--and I appreciate FEMA has been very forthcoming. 
I have some criticisms of how they have done this, but they 
have always been responsive to our request for meetings. I wish 
I could say the same thing for HUD. Not having HUD and FEMA 
here at the same time is already a disadvantage because there 
is a collaborative effort here, we hope. But the failure of 
HUD--and I understand you have made several efforts, and 
Chairman Oxley has made several efforts. The Secretary was 
given a week's notice. It wasn't a demand that he personally 
come but that a responsible official come. I know you tried 
through the staff, diligently, to schedule something for next 
week. And the notion that HUD would refuse to come and has not, 
by now, given you a firm date is an outrage.
    And I therefore would note that Ms. Waters, the ranking 
member of the subcommittee, and I have submitted a letter--
which I believe you have--yesterday to you. Let me just read 
it.
    ``We are writing to request that you convene a business 
meeting of the Housing Subcommittee at the earliest opportunity 
and prior to the end of the current Congressional session so 
that members of the subcommittee can vote to authorize and 
issue a subpoena to HUD Secretary Alphonzo Jackson. I am very 
disappointed that we have to come to asking you to do this, but 
it is just an outrage, a Constitutional outrage, for the 
Secretary of the relevant department not to come and speak 
about these issues.''
    And because while FEMA has some responsibility, we have a 
longer-term responsibility; we have the question of the 
interactivity of HUD section 8 vouchers and what has been going 
on. And so I just want to note this, Mr. Chairman.
    And as I said, this is no criticism. Indeed you and the 
Chairman of the Full Committee have been very cooperative on 
this. FEMA has been cooperative. I have never seen anything in 
25 years here, like the failure of the Secretary of HUD either 
to come himself or send a representative to talk about what has 
got to be one of the most important issues facing that 
Department.
    So I thank you for your attention to this. And if you can 
get a response from him without us having to subpoena him, that 
would be preferable; but we will press this notion of a 
subpoena if that is what it takes, sadly, to get a HUD 
representative.
    Chairman Ney. Thank you.
    Mr. Scott.
    Mr. Scott. Yes, Mr. Chairman. I would like to have a moment 
on this myself, because I really believe that this is an 
extraordinary dereliction of duty. It is an insult to this 
committee. It is an insult to the entire House of 
Representatives that not only did Mr. Jackson refuse to come 
and refuse to respond, but of all the employees that HUD has, 
you mean to tell me we cannot have one representative from that 
one agency--that obviously has more substantive need to 
respond, particularly with Katrina and with Wilma, with Rita, 
the historic devastation that those storms have done. I mean, 
this is just unacceptable. And I think it is obviously a signal 
of a huge meltdown on the part of this entire Administration in 
terms of its inability, unwillingness, and insensitivity, to 
respond to the pressing needs of people who have been 
devastated.
    We have had victims from Katrina up here literally crying, 
begging for help from day one with the storm. And consistently 
this Administration, this government, has failed them. This is 
despicable. And it should not go unnoticed. And we must hold 
this government to a higher standard in responding to its 
people. The people in the Gulf area and the people of America 
deserve better than what this Administration has given them, 
and the failure of the Housing Secretary himself not to be here 
is appalling and unacceptable.
    Chairman Ney. Thank you. I am going to go ahead and finish 
my statement, but I appreciate the comment of the gentlemen.
    Again, I talked to the Secretary, and I have talked to 
Chairman Oxley. I talked to him last night, and I see no reason 
why somebody can't be here from HUD. And I will tell you that 
somebody has to be here from HUD, and that is going to cost us 
another day of a hearing as we come back this week--I don't 
think we are going to be back the week after that, so it is 
kind of important. If we don't get the comments and find out 
what is going on--and maybe some things went right and maybe 
some things went wrong--then, as I understand it, on a date in 
January when we are not here, this whole thing is going to take 
place of where people are going to be or not paid, or in hotel 
rooms or not.
    So after talking to Chairman Oxley last night, I fully 
expect that somebody will be here that can converse on this 
issue. Again, it is going to cost an extra day. I apologize for 
that, but somebody will be here. I will correctly assume that.
    So again, along with the Louisiana and Alabama and the 
Mississippi Gulf Coast, Federal and local governments now face 
a huge task of coordinating relocation of thousands of 
individuals and families whose lives have been uprooted by 
these hurricanes.
    In September we had a meeting and we brought together 
groups from across housing spectrums. Most members of the 
committee on both sides of the aisle were at that meeting. And 
this was, I think, one of the first steps in trying to get a 
handle and respond to how we were going to deal with this.
    On September 23rd, the Department of Homeland Security and 
the Department of Housing and Urban Development announced two 
distinct programs to address the housing needs resulting from 
Hurricane Katrina. FEMA is the lead agency in administering 
disaster assistance, and the majority of those in need of 
housing assistance will be helped through FEMA's Individual 
Households Program, IHP. Those that do not qualify for FEMA 
assistance, including formerly HUD-assisted evacuees and those 
homeless prior to Hurricane Katrina, will qualify for 
assistance under HUD's Katrina and Disaster Housing Assistance 
Program. FEMA is providing funding to HUD through a mission 
assignment for the program.
    I was pleased to see FEMA's announcement last month that it 
was extending direct Federal emergency assistance reimbursement 
for hotel and motel rooms occupied by people who had to be 
evacuated.
    As I understand from many interested parties with varying 
perspectives on the merits of the hotel program, it appeared 
that significant research and analysis was necessary to 
understand the true impact of this; how many people were 
affected, where they are at and what options they have, 
especially in the area of housing. If they are trying to get a 
job, they have to have a place to stay.
    So given the complex ramifications of abruptly ending this 
program, it became increasingly clear that more time is 
necessary to work with State, local, and Federal partners to 
ensure these families can become somehow self-reliant again and 
reclaim some normalcy to their lives.
    And I look forward to this hearing; and with that, I am 
going to yield to Mr. Frank.
    Mr. Frank. Thank you. Let me yield to, if I could, first 
the gentleman from Texas, who represents the city of Houston, 
and who has some important correspondence that was submitted to 
us for the record from the mayor. Houston has been one of the 
cities that has done an excellent job of trying to help out. 
The mayor has done a great job, and Representative Green has 
been very active with that and has been one of the point people 
for us on this. So if we could just recognize the gentleman 
from Texas to make that submission.
    Chairman Ney. The gentleman from Texas is recognized.
    Mr. Green. Thank you, Chairman Ney. And I would like to 
thank Ranking Member Frank, also subcommittee Ranking Member 
Waters. And I would also like to, if I may, just briefly say 
thank you to you, Mr. Garratt, for being here. You are in a 
tough position today. And you are in a tough position because 
we live in a world where it is not enough for things to be 
right, they must also look right; and it doesn't look right for 
us not to have the representation from HUD in attendance.
    Now having said that, I do have letters from the Mayor of 
the City of Houston, Mayor Bill White, and these letters are 
addressed to the Chairman--pardon me; yes, the Chairman of HUD, 
the Honorable Alphonzo Jackson, the Secretary of HUD. And I 
would like to, with your consent, Mr. Chairman, enter these two 
letters into the record, if I may.
    Chairman Ney. Without objection.
    Mr. Green. And Mr. Chairman, would it be appropriate for me 
to make additional statements now, or should I wait until my 
turn?
    Chairman Ney. We will go to Mr. Frank and then come back. 
It is still Mr. Frank's time.
    Mr. Frank. Thank you, Mr. Chairman.
    Before I begin my statement I would like to also submit for 
the record a statement from the Low Income Housing Coalition, 
and let me just quote from it:
    ``In the 3 months since Hurricane Katrina, the Federal 
Government, which is required by law to assist people displaced 
by natural disasters, has been unable or unwilling to develop 
and implement a coherent, functional, consistent plan. The 
result is continued instability and trauma for tens of 
thousands of people who are unable to begin to rebuild their 
lives.'' This is on behalf of the Center of Budget and Policy 
Priorities; the National AIDS Housing Coalition; the National 
Alliance to End Homelessness; the National Law Center on 
Homelessness; the National Low Income Housing Coalition; the 
National Policy and Advocacy Council on Homelessness in New 
Orleans; and Unity for the Homeless.
    I would also submit statements from the National 
Association of Housing and Redevelopment Officials, and the 
National Multi-Housing Council, again lamenting the shortfall. 
And I would ask the--
    Chairman Ney. Without objection.
    Mr. Frank. Now, as I said, I have serious concerns about 
HUD, and we ought to be clear that HUD should not gain from its 
absence. I have many criticisms to make of FEMA, but I am more 
critical of HUD, and obviously by being responsible and coming 
forward, FEMA exposes itself to these criticisms. And we ought 
to be very clear that HUD has also been, in my judgment, even 
more culpable.
    In particular, there were early requests from HUD to cities 
that have section 8 waiting lists to take people who were 
evacuated and put them ahead of people under section 8 waiting 
lists. Pitting poor people in distress against each other is a 
despicable situation, to quote my colleague from Georgia. And 
that was especially the case, because at that time FEMA had 
been given $62 billion. And for HUD to be urging administrators 
of housing authorities who had section 8 waiting lists to cut 
into this already badly stretched section 8 program was a 
mistake. And I hope--and I have been talking to the 
appropriators. That appears to have stopped going forward, but 
it does seem to me appropriate for the housing authorities to 
be reimbursed for that so we don't have that loss. I think 
there is enough money, and we have asked the appropriator in 
his reprogramming to do that.
    But now as to FEMA. First of all, I have to say that this 
announcement on November 14th that people would have to move 
out of hotels on December 1st was one of the most heartless 
things I have ever seen a government do that did not involve 
absolute loss of life. FEMA did, 9 days later, correct that, 
but what distress was imposed on already saddened people. And 
the very fact that somebody so thoughtlessly would have done 
that, you know, I--and in some cases, the gentleman from 
California who has now joined us, the Ranking Member--have sent 
a number of letters to FEMA. I don't believe we have gotten any 
answers.
    On October 7th, I said to FEMA, look, you have got a 
deadline coming up. Could you please tell people what is going 
to happen at the end of the 3 months? They waited 5 or 6 weeks 
to do that, and they gave people who were deprived of their 
homes, who were homeless, in many cases without any income, 
without a lot of resources, they gave them 2 weeks' notice that 
they were going to have to move out of their hotels. Then they 
held it off until January 7th. That is just outrageous.
    Secondly, we have this insistence that people rent 
apartments for 3 months. Does everybody in FEMA own a home? Has 
no one in FEMA ever rented an apartment? Does no one in FEMA 
understand the difficulty of getting a 3-month lease, 
particularly when you are homeless? Now, compound that with the 
fact that in some cases cities were willing to step up--the 
gentleman from Texas just read to us from the Mayor of Houston. 
Mayor White has been superb. People in Atlanta have been 
helpful, and other cities. They were willing to help out, they 
were willing to be kind of be the go-betweens, they were 
willing to sign the leases. It is hard enough to get a landlord 
to give you a 3-month lease; maybe if the mayor or his people 
asked, they might do it. And they were doing that, to their 
credit.
    First, many of them signed 1-year leases. HUD, without--
FEMA, without adequate notice to them, has since told them that 
they won't honor the full year lease. And there was nothing 
that I saw in advance that led them to think that. They looked 
at the Stafford Act, which seemed to authorize up to 18 months. 
So there is a kind of retroactivity problem here. And at the 
very least, where you had a city put itself out that way and 
sign a 1-year lease, shame on us if we try to stick the city 
when you are sitting on a $62 billion appropriation.
    Secondly, why repudiate the cities now? You have told the 
cities that you won't take their help anymore. You know, I can 
understand that--I mean, if George Forman was in a fight and he 
told me he didn't need me, I would understand that he could 
probably handle it without me. But you are not George Forman. 
You are not doing a good enough job by any means to refuse help 
from cities that are ready to step in. Again, we are talking 
about people, some of whom were at a low-income status, people 
who were working hard to deal with life. They were hit with 
this terrible disaster through no fault of their own. Their 
lives were further disorganized by the inadequate government 
response. They were put in hotels. They don't have resources. 
Some of them may be far away from home; they don't have jobs. 
And a city is willing to help them rent an apartment for 3 
months, and you say no? I hope you explain to me what possible 
reason you could have for refusing the willingness of local 
governments to do this.
    Finally, we still have people in an uncertain situation. 
They are being told 3 months; 3 months, we don't have any clear 
criterion for what they need to do to continue beyond the 3 
months. Why not give them a year? Look, people aren't 
voluntarily staying away from their homes. People aren't loving 
living in hotels. You don't have to worry that they are going 
to cheat you by staying there longer than they need to. Why not 
give them the year, and then if they can find something else, 
let them out. Again, with this $62 billion, why not err--if it 
is going to be an error, why not err on the side of a little 
bit of compassion and charity instead of subjecting these 
people to this kind of constant every 3-month turmoil?
    And finally, one last point. We continue to have a great 
deal of uncertainty about the mobile home recreational vehicle 
trailer situation. One of the things I will be doing is 
submitting to you: Can you tell us who is in what category and 
where they are? I am told there are 800 mobile homes, 36,000 
recreational vehicles. We are told there are 25,000 mobile 
homes that have been delivered to FEMA to staging areas. The 
Mobile Home Institute and Manufactured Housing Institute has 
told us that. What is the status of those? What is holding it 
up? I understand you can't put them all in there right away. 
Frankly, I think you were unfairly criticized by some. Some 
people said the mobile homes are terrible. Well, they are only 
part of the solution; they shouldn't have been the whole 
solution. And we appear to have gone from too much reliance on 
them to not enough.
    But the fundamental point I want to leave with is this: Do 
not treat these people who have been through so much trauma, 
who have had through no fault of their own so much taken away 
from them, do not treat them with the kind of microscopic 
scrutiny that this government hasn't applied to contractors in 
Iraq or contractors anywhere else. Let's understand the status 
of these people; let's work with cities that want to help, and 
let's show a great deal more compassion than has been shown so 
far.
    Thank you, Mr. Chairman.
    Chairman Ney. The gentlelady from California, our ranking 
member.
    Ms. Waters. Thank you very much, Mr. Chairman and members.
    First, I would like to thank our active FEMA director. And 
I want to preface my statement by saying any harsh comments 
that you may hear today are not personal. We are pleased that 
you are here. We are very upset that HUD is not here and HUD 
has left you to face the music alone. And you are in a position 
where the previous director of FEMA failed his country and the 
people of the Gulf region, and so you are what we have to deal 
with today. And we are very, very frustrated with FEMA. We are 
very, very upset that we are constantly bombarded with 
questions, with complaints, with dissatisfaction from the 
victims of Katrina.
    The first thing you need to know is this: Nobody really 
understands how you work. We have been trying to get 
clarification for every written request that we have made to 
FEMA. We have not to this date gotten a response. We can't find 
out how many trailers you have, where they are located. We 
don't know where the people are in the United States, and how 
many. The Mayor of the City of New Orleans was here yesterday; 
he cannot get from FEMA where the people are from his city, 
where are they located? Where are they living?
    We were passing out baskets for Thanksgiving in Los 
Angeles, California, to people from New Orleans who were living 
in hotels, who were crying in line because of the information 
that was disseminated from FEMA that they were going to be put 
out as of December 1st. We know that you came back and you 
changed the date. Now they will start crying, I guess in 
January, because that is the purported date.
    Then when we called FEMA, FEMA tells us, well, that is not 
really a hard-and-fast date. We are going to take it on a case-
by-case basis. What are the rules? When someone calls FEMA and 
their time is up, what are the rules? What rules are people 
playing by? What are the questions? Where are the forms? What 
do they look like? What constitutes the reasons by which they 
will be extended or denied? We don't know that. We cannot get 
our workers and our officers trained to be able to be of 
assistance to people all over this country. We need some 
answers.
    What is the interaction between FEMA and HUD? We have real 
questions about housing assistance, because this is the most 
desperate--these are the most desperate needs that we are 
confronted with.
    I would like to spend some time asking you about 
contracting and how you are contracting. Are we still in the 
low-bid contracting game? What happened to the Big Four that we 
were contracting with, the Ford Corporation, the Shaw 
Corporation, Halliburton? Have we figured out--I don't know 
whether or not--where we are with affirmative action in times 
like this?
    But since I don't have a lot of time and we are just doing 
our opening statements at this point, I just want to try and 
communicate to you how dissatisfied we are, how upset we are, 
how embarrassed we are about FEMA. FEMA does not work. It is 
not working. And maybe it is not your fault as an acting 
director who stepped in, but what are your recommendations for 
how we can do better? Why can't we get this relocation right? 
Why can't we--we started talking about manufactured homes and 
trailers right at the beginning of all of this, because we knew 
that people couldn't stay in the shelters forever. We knew that 
we had to have some transitional housing. We knew a few things. 
We talked to FEMA about not putting up extensive ghettos where 
you could spread out the trailers on small lots. We have had 
people who have come forward with private lots and offered to 
give their lots, volunteer their lots; they have not been 
accommodated. And then you pass this off by telling us, well, 
that is really not your responsibility; it is up to the cities, 
it is up to the States, to talk about location.
    The buck has to stop somewhere. And so we are going to have 
a lot of questions for you today.
    And again, I want you to know that we are not happy with 
HUD either. And I think it has already been identified by Mr. 
Barney Frank that we are going to try and subpoena HUD. And I 
have suggested to some of my colleagues that if HUD doesn't get 
over here, I am going over to HUD. I am known to do those kinds 
of things. I am going over there, and I am going to ask some 
people to go with me. And as a matter of fact, it is time for 
me to come see FEMA and see what you people do, how you are 
organized, who is responsible for what. I am just sick and 
tired of looking stupid and dumb when people ask me questions. 
I yield back the balance of my time.
    Chairman Ney. I thank the ranking member.
    I want to submit for the record, without objection, two 
statements, one from the National Community Development 
Association, the other from the National Association of Housing 
and Redevelopment Officials--and hearing no objections--for the 
record.
    The gentlelady from New York, Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    I just want to be on the record to express my 
disappointment and my frustration with the fact that the 
Secretary of HUD, Mr. Jackson, refused to appear before this 
committee to help us understand the lack of response or the 
ineffective leadership and mismanagement of the disaster 
response from the Federal Government.
    You know, if there is a time when this Administration can 
show the world and Americans what they mean when they talk 
about compassion and conservatism, it is today. And I am tired 
of hearing the Administration's response to criticism, saying 
that this is an unprecedented disaster. Yes, it was an 
unprecedented disaster, and this is why we need an 
unprecedented response that the people who are suffering and 
who have lost everything are not getting from this government.
    On October 18th, I sent a letter to the White House--and 
maybe you can answer for the President today--expressing 
concern about the Administration's wasteful spending on 
uncoordinated efforts to house Katrina victims. The letter 
questioned taxpayer spending on cruise ships, trailers, and 
hotels when other more cost-effective, long-term housing 
alternatives exist. The letter also questioned why the 
Administration refuses to create an entity to coordinate the 
Federal Government's housing functions.
    And, Mr. Garratt, the response to this crisis has been 
ineffective, inadequate, and clearly is not working. I would 
strongly suggest to you, accept the fact that you have made 
mistakes, go back to the drawing board and come up with a 
strategy that will bring hope to the people who are suffering 
so much.
    Thank you, Mr. Chairman.
    Chairman Ney. The gentleman from Georgia, Mr. Scott.
    Mr. Scott. Thank you very much, Mr. Chairman.
    First of all, I want to thank you, Mr. Chairman, for the 
outstanding job that you have done, for your persistence, your 
hard work in doing everything you possibly could to get HUD 
here. It is certainly--he is not here, and he is not here at a 
great disappointment to you as chairman. And I know that 
personally. And I just want to make a point on the record to 
let everybody know how hard you worked to try to get him here 
and how disappointed you are, as all of us are as well. So I 
want to thank you for your efforts on that.
    I can't say enough now just how mad I am about this entire 
situation. And this meeting, this gathering here this morning, 
is fully demonstrative of the sadness and the shame of the 
situation. This committee room should be packed. Every single 
member of this committee ought to be here. It tells you 
something. Not only is HUD--HUD's absence from this is symbolic 
of this entire country's--and this Administration's 
especially--attitude about this problem. And you know, I am 
beginning to wonder why. Is it because these are poor people? 
Is it because most of these people are African Americans? These 
are serious questions, and we have got to find some answers to 
them.
    On the day before yesterday, there was a hearing on these 
very issues by another committee. And I cannot erase from my 
mind the pain and the anguish on the faces of those victims 
coming up here from New Orleans and Mississippi. It is 
inexcusable for this HUD Secretary not to be here.
    Now, I just want to submit for the record here--and I think 
it is very important. And we have traced just a news headline 
litany that I think expresses the attitude, because we are 
going to have to get to the bottom of this. We are going to 
have to find out why this government is not responding to this 
most serious issue, when hundreds of thousands of their 
citizens are in such great need. If we can go over to Iraq and 
tear down a country and rebuild that country, the least we can 
do is the same for our own people.
    Chairman Ney. I just want to note that the time is expired, 
but the gentlelady has to go to a markup, so I want to make 
sure--
    Mr. Scott. Thank you very much, Mr. Chairman.
    I just want to make sure that everybody understands the 
seriousness of this issue. And in view that the lady has to 
leave, I will reserve some of my other comments for the 
question and answer period. Thank you.
    Chairman Ney. The gentlelady from California.
    Ms. Lee. Thank you very much. And I will be very brief. I 
just want to associate myself with the remarks of all my 
colleagues here and say a couple of things, Mr. Garratt.
    First of all, let me just say with regard to Secretary 
Jackson's absence here, I think it is really a slap in the 
face. I think it shows the rest of the country now exactly what 
this is about and why there is such a gap in terms of--an 
attitude gap, a gap in coordination, a void in terms of the 
delivery of services that people deserve. And it shows us that 
this government has probably--on this, and God knows if there 
are any future disasters--it melts down, actually in a time of 
need. And it is just downright shameful that the Secretary of 
HUD won't come to a housing subcommittee. And for the life of 
me, I don't know if this is just an attitudinal problem, I 
don't know if it is one of his schedule, I don't know if it is 
just one of the facts that he just doesn't want to come 
forward. I mean, I have no clue why he is not here, but I would 
hope that someone, our chairman and our ranking member, that we 
get him here; because people who have been victimized through 
no fault of their own have a right to know what their 
Department of Housing and Urban Development is doing and what 
type of expectations they should have.
    Secondly, let me just say, what has happened with FEMA in 
this whole disintegration, I think, has been horrible and 
disastrous, and the anxiety--and we have probably about 1,200 
residents in our area--the anxiety that has been created. Just, 
for example, when people were notified that they would be put 
out of the hotels and motels, this was right before the 
holidays. The insensitivity just to let that word go out 
worries me in terms of what kind of culture you have over at 
FEMA that would allow this edict to even go out. I think that 
that was just an example of the kind of problems you have at 
FEMA that really, unfortunately, resonate with people and 
impact people who have been traumatized, who have a lot of 
anxiety, and who don't know what is going to happen next. I 
would think FEMA would be trying and working in every way 
possible to minimize this anxiety and to talk about and make 
sure that people knew that this transition would be as painless 
as possible and that FEMA was working with HUD to help make 
sure that people get home as quickly and as safely as possible.
    But the direct opposite messages are coming out, and so I 
am not sure what is happening. I think Congresswoman Waters is 
right; we need to figure out just what the deal is over, inside 
of the agency that would allow such unbelievable kind of 
messages.
    So, Mr. Chairman, I just thank you. Thank you, Mr. Garratt, 
for being here. And as soon as we finish with our markup, I 
intend to be back and we will produce some of the answers to 
those questions.
    Chairman Ney. I thank the gentlelady.
    The gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, again, Mr. Chairman. And again, thank 
you to Ranking Member Frank and subcommittee Ranking Member 
Waters for holding these important hearings.
    Especially as we approach the holiday season, we want to 
make sure that the persons who are victims of Katrina and Rita, 
these hurricane evacuees, that they know that we are sensitive 
to their needs.
    Mr. Chairman, I want to say a kind word about the City of 
Houston, because the City of Houston at a time of need opened 
up its arms, its hotels, and its apartments, to the evacuees. I 
would like to compliment Mayor White, our county Judge Eckles, 
for the outstanding work that they did. And I mention them 
because at the time that they were being resourceful and being 
helpful, they didn't ask about section 403, section 408. They 
saw a need, and they met the need. Probably the only rule that 
was of paramount importance to them was the golden rule: Do 
unto others as you would have them do unto you. And that is 
what our city did.
    And it is regrettable that we now have this consternation 
developing with reference as to whether there will be 
reimbursement for leases that are longer than 3 months, because 
at the time these leases were negotiated, there was no 
indication that they would be but for 3 months. This not only 
creates a financial concern for the City of Houston, but it 
really does create anxiety with the evacuees. I think that we 
somehow have missed out on the whole notion of loving our 
neighbor as we love ourselves, just treating people right.
    This has become a major problem for this country, and here 
is why; because after 9/11--and it was a dastardly thing that 
was done--we treated the families, the victims, right. We did 
the right thing. With the savings and loan debacle, we did the 
right thing. It doesn't look right for us to do anything less 
than the right thing for the victims of these hurricanes.
    If we don't act prudently and expeditiously, the world is 
going to start to draw conclusions about the victims that they 
saw on television juxtaposed to the victims of 9/11 and the 
savings and loan debacle.
    So I beg that you would please understand that, having 
answered the clarion call for help, the City of Houston and the 
evacuees ought to be treated fairly.
    I yield back the remainder of my time, Mr. Chairman.
    Chairman Ney. Thank you. The gentleman, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman, and Ranking Member 
Waters, Ranking Member Frank.
    Though it is redundant, I too must render or state my 
disappointment and even disgust with the failure of HUD to show 
up for this hearing. I will say it again; it is almost as if 
the Federal Government is suffering from ADD, attention deficit 
disorder. We just can't stay focused on a problem very long. We 
are at best, it seems, a 12-week Nation.
    For HUD to miss this hearing sends a statement across this 
country that is difficult for any of us to explain. HUD's 
failure to show is like Moses failing to show up for the 
crossing of the Red Sea. It is like Manning failing to come out 
of the locker room after half-time. And this is the second half 
of this tragedy.
    And I know that we have all kinds of hearings scheduled 
here in the House, and no committee operates in respect of 
another committee's time, and so many of my colleagues are no 
doubt in committee hearings at this time. That is my hope; that 
they are either at hearings or at funerals. The reason is that 
I cannot imagine--and none of you can't either, I don't care 
what your political pedigree might be--having this hearing 8 
weeks ago without having every member of the committee here, 
the HUD staff, and even a phalanx of staffers from FEMA, 
standing room only. They would have been here. There would have 
been cameras everywhere, people bumping into each other, 
fighting for space. But not today.
    The agency commissioned with the responsibility of dealing 
with housing is not here. The biggest issue facing New Orleans 
is housing, and the Federal agency responsible for dealing with 
housing didn't show up. This is, as one of my colleagues said, 
an embarrassment. The Los Angeles times carried a story on 
Tuesday, ``Giving Up on New Orleans.'' There are people from 
New Orleans who believe, with a lot of good reason, that this 
Nation has given up on New Orleans. And it is a shame that I 
have got to talk with you, but you know, if only one chicken 
shows up, that is the one you feed.
    And so I am sorry; I mean, I am not mad at you, I am happy 
that you are here. But unless somebody else--could we get a 
substitute for HUD, somebody to just sit at the table with a 
HUD sign? I mean, because I feel badly about talking to you. 
You didn't do it, although I wish you had had a few more 
staffers with you just to make us feel better that it was 
serious. But this bothers me. I have got some questions about 
FEMA later in the hearing, but I had to register, Mr. Chairman, 
my disgust. And I appreciate very much you being here. Thank 
you.
    Chairman Ney. Any other members have any other statements 
or--any other members?
    If not, with that we will go on to welcome David Garratt, 
who is the Acting Director of the Recovery Division at the 
Federal Emergency Management Agency headquarters here in 
Washington, D.C. The Recovery Division is responsible for 
planning and executing the Federal Government's recovery 
efforts for major disasters and emergencies. Mr. Garratt has 
participated in over 30 Presidentially declared disasters or 
emergency operations, including the World Trade Center-Pentagon 
terrorist attack of 2001.
    We welcome you. I am sure you are happy to be here today, 
too. We appreciate you coming.
    Chairman Ney. With that, Mr. Garratt, thank you.

   STATEMENT OF DAVID E. GARRATT, ACTING DIRECTOR, RECOVERY 
 DIVISION, FEDERAL EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Garratt. Thank you, sir.
    Good morning, Chairman Ney, Ranking Member Frank, and 
subcommittee members. I am David Garratt, the Acting Director 
of the Recovery Division at FEMA, and I am representing 
Secretary Chertoff and Acting Director Paulison. It is an honor 
to appear before this subcommittee to summarize and discuss our 
emergency sheltering and housing efforts in support of 
Hurricane Katrina and Rita victims.
    We at the Department of Homeland Security and FEMA 
appreciate your interest in the housing challenges presented by 
the scope and scale of these unprecedented disasters, as well 
as the resources Congress has provided to help us tackle those 
challenges and accomplish our mission.
    I think we all recognize that these hurricanes, and Katrina 
in particular, have thoroughly tested the capabilities of FEMA, 
the Department, and the Nation, including the many States and 
communities nationwide, who are hosting displaced evacuees from 
the affected Gulf region. And yet, while these events have 
tested our plans and processes as never before, FEMA's 
sheltering and housing assistance programs have provided and 
facilitated the means for hundreds of thousands of evacuees to 
quickly secure interim accommodations and continue to fund and 
facilitate aggressive strategy to transition those individuals 
and families into longer-term housing solutions.
    What we want to stress at this hearing and to disaster 
victims across the Nation is that now is the time to begin 
reestablishing and rebuilding your lives. We have been and 
remain committed to helping households recover and reestablish 
themselves. And I would like to outline the assistance programs 
under the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act that FEMA is authorized to provide in support of 
those housing and sheltering needs.
    Under our Public Assistance Program authorized by section 
403 of the Stafford Act, FEMA is authorized to reimburse States 
for emergency protective measures, including emergency 
sheltering. Typically these costs are reimbursed only for those 
States directly affected by the disaster. However, the scale of 
the evacuation prompted by Hurricane Katrina required a more 
expansive approach. Accordingly, to encourage States outside 
the affected area to accept the hundreds of thousands of 
evacuees from the Gulf region, the President responded to 
gubernatorial requests by declaring emergencies for 43 States 
and the District of Columbia. These emergency declarations had 
the effect of reassuring those States that their sheltering 
costs would be reimbursed, as well as provided the means for 
States to transition these evacuees out of shelters and into 
longer-term temporary housing.
    This latter capability has provided an invaluable bridge to 
our longer-term housing strategy, as it allows jurisdictions, 
on a reimbursable basis, to arrange short-term lease apartments 
for evacuees, allowing them to move out of transitional 
environments, such as hotels, and into more stable temporary 
housing. The long-term goal is to bring these individuals into 
broader FEMA housing assistance programs that have more 
consistent guidelines and levels of assistance.
    While section 403 supports sheltering activities, FEMA's 
housing assistance authority is covered under section 408 of 
the Stafford Act. FEMA provides the following forms of housing 
assistance under our Individuals and Households Program, as 
authorized under section 408, rental assistance, home repair 
assistance, home replacement assistance, direct housing, and 
other needs assistance to meet serious needs and necessary 
expenses, to include personal property losses.
    The scope and scale of devastation from these two 
hurricanes eliminated the home repair option for many 
households. Of course, home repair does not apply to renters, 
who have the same need for temporary housing assistance. For 
both these types of households, FEMA offers two forms of 
interim housing assistance: rental assistance in the form of 
financial assistance paid directly to an eligible applicant, 
and direct housing assistance in the form of a dwelling 
provided by FEMA to an eligible applicant.
    We have been collaborating closely with HUD from the outset 
of this event, working together to determine the best possible 
means of joint cooperation to benefit those most in need of 
housing assistance. In particular, I would like to cite the 
assistance of Mr. Hank Williams, a senior HUD official who 
joined our Housing Area Command in Louisiana early on, and led 
an intergovernmental and public/private housing group in 
developing housing solution strategies for the Katrina-Rita 
impact area. We greatly appreciate the support and expertise 
that Mr. Williams and HUD contributed to the development of 
effective housing strategies for the region.
    HUD also made repossessed houses available to FEMA-eligible 
disaster households. It has placed hundreds of disaster victims 
in houses in the four-State area, including 207 families in 
Texas alone.
    HUD, through their Katrina Disaster Housing Assistance 
Program, or KDHAP, is copartnering with FEMA in the 
transitional housing assistance program. The KDHAP, funded by 
FEMA and administered by HUD, is specifically for those 
disaster victims who were in HUD-assisted housing programs 
prior to the hurricane, or are ineligible for FEMA housing and 
assistance, such as predisaster homeless citizens who did not 
have a previous permanent address. Such victims are being 
assisted through HUD's KDHAP.
    While finding temporary housing for so many displaced 
households has been and will continue to be a challenge, FEMA 
and its partners at every level of government and within the 
private sector will continue to work together to find 
solutions.
    In summary, as of early December, FEMA has spent over 4.3 
billion on housing for disaster victims. This relentless 
recovery phase continues. So, too, does our commitment to the 
victims of these disasters and to the States and cities who are 
helping house and care for them.
    At the same time, we continue to seek and develop 
alternative housing solutions in the impacted areas to afford 
as many displaced victims as possible the opportunity to return 
home as fast as possible.
    Thank you. I would be happy to answer any questions that 
you may have.
    [The prepared statement of Mr. Garratt can be found on page 
58 of the appendix.]
    Chairman Ney. Thank you for your comments, and I recognize 
Mr. Baker.
    Mr. Baker. Mr. Chairman, I appreciate your indulgence. I 
regret I was not here to make my opening statement, but I did 
want to express my appreciation to you for this hearing.
    I will say that of the calls I received in the days after 
the storm made landfall, yours was the first offering 
appropriate assistance in whatever direction that might be 
taken at the time to respond to the circumstances. So I want 
the record to be clear that this subcommittee chairman has done 
excellent work in responding to the identified needs.
    I also want to make clear that we are, at this moment, in 
continuing discussions with members of the delegation relative 
to the finalization of H.R. 4100, which creates a government 
corporation to assist in the resolution of the devastated 
housing within the Katrina-Rita impact areas. We are very 
close, and I am hopeful that when we return next week, given 
all members of the Louisiana delegation's willingness to sign 
on to the proposal, that we could have assurances and 
assistance from members of this committee in urging 
consideration of that proposal as a component of the broader 
Katrina relief package that I believe will be considered on the 
Floor next week.
    Unfortunately, I read yesterday in a local wire service 
publication, The Daily Report, that the first calls are now 
being made to the Louisiana Office of Financial Institutions, 
complaining about demand notices being issued for 4 months' 
back payments, plus interest, for homeowners who are not now 
even able to return to their property. With the Congress not 
returning until February, I am very distressed that tens of 
thousands of notices will go out to individuals without an 
identified method by the Congress to respond to what I hate to 
say will be a cataclysmic financial problem.
    The banks who are taking this action are certainly within 
their legal authority to do so, and may, in fact, have a 
fiduciary responsibility to their shareholders and to 
regulators to take these actions, but the banks will be in no 
better position than the individuals. Once the banks acquire 
the property through the foreclosure process, they are going to 
have parcels scattered all over the area, not contiguous. They 
will have a liability on the lot, which is a devastated 
structure, which they will have to pay to remove, and then only 
have improved property to liquidate to try to remedy the 
partial mortgage obligation.
    I have learned that it will not be unexpected to see a very 
significant number of Louisiana institutions forced into a 
financial condition that will not warrant continued operations 
for lengthy periods of time--I am saying that as carefully as I 
can. But these are extraordinary circumstances, and they are 
extraordinarily bad.
    Mr. Chairman, again I want to emphasize my deep 
appreciation to you for your leadership and insight into these 
matters, and make clear to the members of the committee I have 
a deep and abiding interest in this matter, but I do find it 
absolutely necessary at the time, working with members of the 
Louisiana delegation, to try to get the elements of H.R. 4100 
finalized, so I can return to this committee and to the 
Financial Services Committee with an offer for its 
consideration, I hope, next week. And I thank the gentleman for 
his courtesy and yield the time.
    Chairman Ney. I thank the gentleman for his comments.
    I think that FEMA is in unchartered waters, and I thank you 
for coming here today. I think FEMA itself, again, is in an 
area of unchartered waters. Now, we have had disasters, and we 
evacuated in Tuscarawas County, Ohio, 7,000 people last year, 
out of a county of 70,000. But that was temporary. And then the 
water went down, and they came back in, so it wasn't long term. 
And we had people who also had some horrific damage. But this 
is a long-term situation of immense magnitude.
    I think, just reflecting back, that maybe the Congress 
should look at how funds are distributed, or maybe the funds go 
from FEMA or they go over into HUD, I am not sure.
    I also do feel at times that this is done in a vacuum. I 
cannot hang that on you. You are not running the top of the 
food chain with the ship. But you read in the newspaper, well, 
people are going to leave on such a date, and then it got 
extended, and now it is going to be in January. And even if the 
Congress is not in session, I still think that FEMA and HUD 
have to communicate with Members of Congress and also with the 
committees of jurisdiction, because, again, I just think 
sometimes things are done in a vacuum. Now, maybe they are done 
in a vacuum, and they are good things, but maybe some of the 
things are not working.
    But right now, I would like to know, to the best of the 
knowledge you have of how this is working, what is the exact 
coordination between HUD and FEMA? This decision of people to 
have a date certain to leave, was that decision made by FEMA 
only, by HUD, in joint communication? How are the decisions 
made, for example, on the issue of the hotel rooms and things?
    Mr. Garratt. We are collaborating very closely with HUD on 
a regular basis, both in terms of the transitional housing 
strategy that we have unveiled and in the longer-term, long-
term recovery basis. HUD is a member of ESF-14, which is the 
long-term community recovery ESF (Emergency Support Function), 
and they are a regular participant in that, again, as well as 
participating with us in our normal assistance programs to 
individuals.
    In terms of the hotel-motel issue, that was a decision that 
was made principally by FEMA. HUD was not a collaborator in 
that decision. And although you indicated that you thought that 
that was probably a decision that was up above my level and 
that I could not answer that, in fact I am the individual who 
issued the guidance for that particular date, so the buck stops 
with me regarding the hotel dates that have been established, 
both the original December 1st date and the new December 15th 
and January 7th dates.
    Chairman Ney. Thank you. On the issue of January 7th, 
aren't States or locals supposed to submit some type of plan to 
FEMA?
    Mr. Garratt. Yes, sir, they are.
    Chairman Ney. Does that go to FEMA and HUD, or just FEMA?
    Mr. Garratt. It is just going to FEMA. It is going either 
to the Federal coordinating officer or, in the absence of the 
Federal coordinating officer, the regional director.
    Chairman Ney. I see here in the notes that 10 States--
    Mr. Garratt. Yes, sir.
    Chairman Ney. Would receive further extensions to January 
7th. That gives them time to, I think, outline their plans or 
how they are going to deal with this; is that correct?
    Mr. Garratt. Yes, sir.
    Chairman Ney. Okay. How does a State know when their plans 
are approved?
    Mr. Garratt. That approval will be provided--I expect that 
feedback to go back to the State almost immediately. In fact, I 
expect that the States are collaborating closely with the 
individuals who will be approving those plans. So I would 
expect that to be almost immediate.
    Chairman Ney. I had a chance yesterday to meet the Mayor of 
Gulfport, Mississippi, who is up here trying to, obviously, 
help his town. We talked about New Orleans a lot, but is the 
same situation occurring and, if it is, to what extent with 
Mississippi and other areas? Or is that not the case in other 
parts beyond New Orleans?
    Mr. Garratt. In terms of--
    Chairman Ney. People temporarily housed in hotels.
    Mr. Garratt. Our biggest problems are the States of 
Louisiana and Mississippi. Both of them have individuals in 
hotel rooms, and, again, there is a lack of available housing 
stock in both of those States.
    We have been working hard with both States to get travel 
trailers and mobile homes in there. As a matter of fact, I 
think, just recently, we hit the 40,000 mark for manufactured 
homes. So in the last 3 months, we have managed to push and 
install 40,000 travel trailers and mobile homes into those 
States. That far exceeds anything we have done in the past in 
Florida or elsewhere.
    So we are making some good progress, but we are still a 
long way away from where we need to be to fully accommodate the 
hotel and motel populations in both of those States--
Mississippi to some extent, Louisiana to a much greater extent.
    Chairman Ney. I think the issue of normalcy of people, 
people, for example, have come up to Ohio, have come to our 
area or Columbus. They don't necessarily want to be there, but 
they have some semblance of normalcy because they are in some 
type of home, and the children are in some type of school. But 
the people who do not have the ability to travel or the 
resources or the connections or friends or relatives, I assume, 
are a lot of the people who are in the hotel rooms; correct?
    Mr. Garratt. Yes, sir.
    Chairman Ney. Now, has it been explored as an option to 
have available manufactured housing or some type of trailer or 
something of that nature--and you said it is 40,000--for those 
people to be back into their home area, maybe where they had a 
house, and there is a vacant lot, and they could be there? Or 
will the infrastructure not handle that at this particular time 
in certain parishes? Do you have any handle on that?
    Mr. Garratt. It is a determination that is being made on a 
parish-by-parish basis. There are certain parishes where the 
infrastructure does not exist to support placing homes on 
individual's lots with the available hookups. That is, in fact, 
our preferred method of dealing with this, at least at the 
front end of this, is placing those on lots. And the vast 
majority of the travel trailers and mobile homes that we have 
pushed into the area to date have been placed on individuals' 
private lots next to their homes so they can stay there while 
they are working there.
    Clearly, we are trying to improve that capability. We are 
in fact going to help out Entergy in the Orleans Parish which 
has had a problem bringing in assistance to help them complete 
hookups, and we are going to be using our own contractors to 
help them with some of the hookup activities that they are 
going to be engaged with just so we can help facilitate getting 
additional travel trailers and mobile homes in there. So we are 
trying to get solutions to some of the problems they are 
facing. But, at the end of the day, we are still looking at 
close to 120,000 travel trailers or mobile homes at this point 
in that affected area.
    Chairman Ney. That you need.
    My time has expired so we will move on. I know members have 
some question.
    The gentleman from Massachusetts.
    Mr. Frank. Thank you, Mr. Chairman. First, can I ask 
unanimous consent--we have been joined by our colleague from 
Louisiana, Mr. Melancon. Can I ask unanimous consent that he be 
allowed to join us?
    Chairman Ney. Without objection.
    Mr. Frank. Thank you, Mr. Chairman.
    Mr. Garratt, I am going to be submitting a series of 
questions. I must tell you, the gentlewoman from California and 
I have sent a series of letters. We haven't gotten much in the 
way of answers, and I can't ask them all now, so I will be 
submitting you some questions. I will submit them for the 
record.
    Let me just ask, I want to focus on the rental of regular 
apartments, because, obviously, we all agree that would be a 
very good thing if we could get them there. Why the decision to 
cut off the intermediary role some cities have been willing to 
play, Houston, Atlanta and others? They were willing to be 
helpful. Why are you rejecting their help?
    Mr. Garratt. Sir, I am not familiar with the--
    Mr. Frank. Well, let me explain. We had the situation where 
several municipalities have agreed to be the intermediaries, 
rent the apartment for the individual and then get the 
reimbursement. They have been told that, as of January--I 
believe, as of March 1st, they can no longer play that role, 
even for people who would still be eligible.
    Now, again, we are talking about people who may not be 
terribly knowledgeable about the rental market, and you have 
this 3-month problem, which I also want to talk to you about, 
which is a separate issue. But I don't understand why, if the 
City of Houston, the City of Atlanta, as my colleague from 
Georgia reminds me, and others that want to be helpful and be 
the intermediary, why are you rejecting that?
    Mr. Garratt. I don't believe we are rejecting that, and I 
think this sounds like it is the result of a misunderstanding 
rather than a rejection of State or city assistance on the part 
of FEMA. In fact, we look forward to it, and the cities getting 
involved.
    Houston in particular has been a model in terms of dealing 
with the population that they have. They have been moving 
upwards of 500 families a day out of hotels and motels and into 
apartments. So they have been a model for the rest of the 
country in terms of how to address and handle that, and they 
have been maintaining that pace for a number of weeks now.
    This is the way that it works in terms of our relationship 
with 403 and 408 to renting apartments. We provided 403 
assistance to the States, to the cities and told the States and 
cities at the very beginning of this disaster, you can arrange 
for and lease apartments for up to 12 months for individuals, 
for evacuees. As part of that process, we did that because we 
recognized that they were not necessarily going to be able to, 
in a lot of the cities, obtain apartments for less than 12-
month leases.
    Our preference was to get 3-month leases or 6-month leases, 
but we authorized it up to 12 months. Even as we were doing 
that, authorizing them to secure those apartments using the 403 
protective sheltering public assistance funding, we have been 
moving to convert and move individuals into the individual 
assistance program, whereby we are providing assistance 
directly to them or we are going to assume the lease on that 
apartment using that 408 money.
    So when we encouraged a State or authorized a State or a 
city to lease an apartment for 12 months, we incurred an 
obligation to honor that contract. Now, honoring that contract 
either means that that individual who is in an apartment that 
was leased for 12 months will take over the lease on that 
apartment, because they are now getting individual assistance--
otherwise it would be a duplication of assistance--or we will 
convert that 403 lease to a 408 lease, and then we would pay 
that ourselves, again continuing that lease to the 12-month 
period. Or if the individual chooses to leave that apartment 
once they get their individual assistance, we would ask the 
city to terminate that lease, and we would, in accordance with 
the contract, pay the termination fees of that contract.
    Mr. Frank. What do you mean by termination fee? I mean, 
they sign a 12-month lease. Should they go say to the landlord 
it is over? What is the termination fee?
    Mr. Garratt. Typically, when you sign a lease for an 
apartment, if you terminate that lease early, there is a 
penalty for terminating that lease early. That is part of the 
contractual arrangement. We are willing to pay that penalty as 
part of terminating that lease early. In other words, we will 
honor the terms of that contract.
    Mr. Frank. So let me get this. The cities will not lose a 
penny, because you said they were told they could have 12 
months, so they will be held harmless for the full 12 months?
    Mr. Garratt. They will be held harmless for the terms of 
that contract.
    Mr. Frank. If they signed a 12-month lease--I still don't 
understand. I think it has been helpful to have the cities be 
this intermediary. Why don't you keep it up? Why terminate it 
now? You say, well, it will be up to the occupant. Why not 
continue it for the full term of the lease?
    Mr. Garratt. You are talking about the March 1st date sir, 
is that correct?
    Mr. Frank. Yes.
    Mr. Garratt. The difference is the type of programs that we 
are dealing with. One is a public assistance program whereby we 
are providing funding to a State to then manage this particular 
program. The other is an individual assistance program where we 
are dealing directly with the individuals. So what we want to 
do is terminate a public assistance--
    Mr. Frank. Why?
    Mr. Garratt. Because it is being done under category B, 
Emergency Protective Measures.
    Mr. Frank. Excuse me--finish your sentence. I am sorry.
    Mr. Garratt. The emergency protective measures are not 
designed to be a long-term program. That is what the individual 
assistance program is.
    Mr. Frank. Let me say, Mr. Garratt, with all due respect, 
that is a bureaucrat's answer. ``Why'' is, there is a public 
policy reason. ``why'' would be good or bad. ``Why'' is not 
because of category A or category B, and it wasn't designed for 
it.
    Continuity has something to be said for it. You have these 
people, again, obviously if people were able in a lot of ways 
to get out from under this, they would have done that. But you 
have some people still in this situation; the cities are still 
willing to help. I don't understand. We can redesign it? And 
the difference between 6 months and 12 months, we are not 
talking about 40 years.
    I don't understand what public policy purpose is served by 
saying, okay, no more of the city, now you have to do it 
yourself?
    Mr. Garratt. Except at that point, sir, on March 1st, what 
we hope to have happen is that every individual who is 
currently in an apartment that was arranged by a city under 403 
will now have been identified. We will have determined their 
eligibility. We will have begun providing them rental 
assistance and/or providing housing.
    Mr. Frank. First of all, if everything we had all hoped to 
have happened had happened, this would be a much nicer world. 
For you, given the track record, to terminate this on a hope is 
a very unwise thing to do. What I would recommend to you 
strongly is where you can work it out for the individual, okay. 
But what you have announced is a blanket termination. You hope 
to be able to make these individual determinations. You have 
announced a blanket end.
    Let me ask you, what percentage of the people in this 
category now, for what percentage has that determination been 
made, the individual has the ability, etc.?
    Mr. Garratt. What percentage of individuals--
    Mr. Frank. Of the people who will be affected by the March 
1st cut off, on what percentage have you done the determination 
necessary to transfer them into the other program?
    Mr. Garratt. I don't have those figures.
    Mr. Frank. I don't think you do. I don't think--you don't 
have the figures in your head. I don't think FEMA has the 
figures. Again, this is what troubles me, this kind of 
arbitrary, we are going to end this on March 1st on the hope 
that we will have taken care of everybody. What you ought to do 
is try to take care of everybody, but not put this March 1st 
guillotine hanging over people.
    The second question I want to ask you, and I really urge 
you to think about that, you know, you were wrong about telling 
people, on November 14th, that they were going to be kicked out 
in a couple of weeks. You made some misjudgments here. I think 
you made another one here by this arbitrary date.
    The second question, and I appreciate the time, why a 3-
month, 3-month, 3-month? It is very hard to rent an apartment 
for 3 months. I notice the National Multi Housing Council says 
in a letter we put in, ``It is shortsighted to expect a 
majority of evacuees to be able to return to their homes in the 
next 12 to 18 months. The 3-month commitments for housing do 
not meet the needs of evacuees, nor do they meet the needs of 
housing providers.''
    What leads you to say 3 months for the leases here, or 3 
months for the rental agreement for people, particularly where 
a lot of them are in a particular area? Why would we insist on 
this short-term thing, particularly from the beginning? I don't 
understand why you didn't do 12 months from the beginning. Did 
you really think they would all be out of there in 3 months?
    Mr. Garratt. Two issues here. We did establish the 3-month 
lease requirement when we published our initial guidance that 
identified the December 1st date as the original date by which 
individuals--
    Mr. Frank. You did that. I am asking you why you did 3 
months. I understand that you did that. Why? What is the public 
policy reason for only 3 months?
    Mr. Garratt. Three months from December 1st would have 
brought us to March 1st. That is the date that we wanted to 
convert from 403 to 408 individual assistance.
    Mr. Frank. Mr. Garratt, again, that is bureaucrat talk. You 
want to go from 403 to 408. We are talking about human beings 
here. Three months, you know, these are not the most 
sophisticated people in the world in some cases. In some cases, 
they are. They have been traumatized. Finding a 3-month 
apartment, if somebody came to me today and said, look, you 
have got 2 weeks to get out of where you are living now, and 
you have 3 months to find a new place here in D.C., I would 
feel, gee, I am not sure I can work that out. Why in policy 
terms only 3 months?
    Mr. Garratt. It is not only 3 months, sir. That was our 
goal. We said that we wanted it to be 3 months, but we also 
authorized exceptions to be made for that. If the city comes to 
the--if the Federal coordinating officer comes to the regional 
director, and identifies that we can't obtain leases of 3 
months, they can be authorized to extend those.
    Mr. Frank. It is this extra bureaucratic step to do that. 
Did nobody think about the difficulty of getting a 3-month 
lease from a landlord?
    Mr. Garratt. It is certainly more challenging getting 3-
month leases from a landlord, sir, but it is by no means 
impossible.
    Mr. Frank. You know what--and I am going to end my 
questioning now--you say it is not impossible. It is 
challenging. Haven't these people had enough challenges in 
their lives without you adding to them? Could you not err on 
the side of not posing another challenge to these people?
    Mr. Garratt. This challenge is one that we placed on the 
cities, sir, not on the individuals. This requirement, this 3-
month lease was a requirement for apartments that they--
    Mr. Frank. You are now taking the cities out of it, so now 
the challenges will be the individual's going forward for the 3 
months?
    Mr. Garratt. The purpose of this, again, was we wanted 
these individuals as they were approaching the end of that 3-
month lease, March 1st, to begin--
    Mr. Frank. To take on the challenge of another 3 months, 
because what they have is another 3 months, right?
    Mr. Garratt. Individuals can actually lease an apartment 
for as long as they would like.
    Mr. Frank. You will only guarantee to pay for 3 months, and 
a lot of them wouldn't--
    Mr. Garratt. We are giving them rental assistance in 3-
month increments.
    Mr. Frank. So my last point, yes, you are giving these 
individuals, some of whom have no jobs and have lost 
everything, the right to go make a 12-month deal with a 
landlord with only a guarantee of 3 months rental assistance. 
Fat chance.
    Chairman Ney. The gentleman from Texas.
    Mr. Neugebauer. Mr. Garrett, one of the things that, 
through this housing issue, that I have wondered, and maybe you 
can enlighten me a little bit, basically, when the disaster 
hit, we had different kinds of occupancy, different kinds of 
ownership in the areas that are affected. One, we had owner-
occupied structures that were damaged, and those people who 
were in those were displaced. And then we had renter-occupied 
structures where those people were just renting that structure. 
So, basically, it looks like, to me, what we have is different 
kinds of affected folks with different kinds of housing needs, 
and for us to really have an effective program, we have to kind 
of sort through that.
    For those folks who were renting those structures, many of 
those structures will not be rebuilt or will not be rebuilt in 
a fairly long-term basis because there are some unresolved 
issues. So what it looks like to me, appropriate Federal policy 
there is, as far as it goes for disaster relief, is a 
transition period. And I think that is what you are kind of 
saying there, is we are doing these in 3-month or 6-month 
blocks. But at some point in time, those folks are just going 
to have to go find a different place to rent; that we can't 
indefinitely continue to provide assistance for those folks 
with some kind of a false hope that they are going to be able 
to go back and rent a structure that was where they were 
before.
    The second piece of that then is, though, people who owned 
maybe those properties that were being rented and what kind of 
disaster relief that they are going be able to receive. As the 
gentleman brought up a while ago, some of those properties were 
mortgaged. Maybe some of them were not. So that landlord now 
doesn't have a tenant but now still has a mortgage, so we have 
to give them some resolution of this is what the Federal 
response to that is going to be.
    Have you begun to quantify and identify folks in categories 
like that? Because I think there is this sense that I get--and 
I have been down there and I have listened to a lot of the 
testimony; I have read it--is that there is a sense out there 
that the Federal Government is going to come back in and put 
everything back just the way it was, and that is just not the 
case, because, long-term, there are many long-term decisions 
that are going to have to be made about some of the areas, what 
kind of rebuilding will go back in. And I know the gentleman 
from Louisiana has talked about creating these zones. But even 
in his plan, any realistic plan, it is going to take a long 
time to determine what kind of rebuilding is going to happen 
and in what form it is going to happen.
    So I think what probably would help folks more than 
anything in this process is for us to define, this is what is 
going to be your benefits, and if you have been renting a 
place, we are going to help you transition until you find 
another place to rent. But then our commitment ends there, 
because we can't indefinitely pay for people's rent until 
something magic happens.
    I think sometimes managing expectations is more important 
than actually managing the process. I think there may be some 
unreasonable expectations out there, but I think one of the 
things we need to probably do in this process is give the 
affected groups, whether they completely like it or completely 
agree with it or think it is fair or not think it is fair, but 
at some point in time, I think we owe it to those folks to say, 
this is going to be the Federal portion of that response.
    What is your sense of, for example, in some of those 
parishes, how many renters are we dealing with as opposed to 
homeowners? Because that makes a lot of difference of what that 
response is going to be.
    Mr. Garratt. Sir, I don't have those figures, but we do 
have the capability of pulling those figures from our system. 
We do capture when individuals register whether they were 
renters or homeowners, so we can provide that information to 
you, and we can break it out by parish as well.
    Just a couple of points. Every individual, whether a renter 
or a homeowner, is eligible to receive up to $26,200 worth of 
assistance. That is the cap on individual assistance. That is 
in the form of rental assistance and/or repair assistance, home 
replacement assistance and other needs assistance. You can have 
situations where we have individuals who are renters who may 
not be eligible for home replacement assistance or repair 
assistance but who nevertheless are going to hit that cap. 
Others need assistance, it is going to cover their personal 
property that they had in that rental property, their 
transportation, serious medical needs that they may have had, 
as well as rental assistance. So they could hit that cap.
    Homeowners are also much more likely to hit that cap, 
because, in addition to home replacement assistance, they also 
have had the personal property losses and also may have rental 
assistance requirements.
    In practical terms, at a parish level where we have a mix 
of renters and homeowners, homeowners are in a better position 
right now to get travel trailers and mobile homes, and the 
reason is, as we bring travel trailers and mobile homes into 
the area, the preferences or the easiest, most expeditious way 
of providing assistance is to drop a mobile home or travel 
trailer on somebody's property where they have those hookups 
already existing. We can hook it up, and that individual, that 
family can live there while they try to rebuild their home.
    Renters don't have that capability, so renters are going to 
need group sites to support renters, and group sites are either 
existing commercial sites, which we can find and use, and those 
are being gobbled up pretty quickly in the area, those where 
hookups are capable, or building a brand new group site to 
support a population.
    But those group sites also have their own social 
challenges. We need to have jobs for the individuals who are in 
those group sites. There needs to be a supporting 
infrastructure, wrap-around services, security; there needs to 
be schools nearby. A lot of issues go into building a group 
site and making sure we can support something like that.
    But the bottom line here is, at this stage of the game, 
travel trailers and mobile homes, we can get those in, get them 
put on individual property owners' property a lot faster than 
we can set up these larger group sites to support individuals 
who in many cases are largely going to be renters.
    Mr. Neugebauer. But if you drop a trailer, let's say, on my 
property, and if my maximum benefit is $26,200, is there a 
rental then on the trailer that comes out of my $26,200, or how 
does that work?
    Mr. Garratt. No, sir.
    Mr. Neugebauer. So I get $26,200 plus the trailer?
    Mr. Garratt. Yes, sir, you could, for up to 18 months.
    Mr. Neugebauer. For up to 18 months. So what you are saying 
is that, yes, $26,200 is a maximum cap of cash benefits; is 
that correct?
    Mr. Garratt. That is.
    Mr. Neugebauer. But there are other benefits, depending on 
what class, whether you are a renter, whether you are--so if I 
was a renter, though, the rent comes out of my $26,200?
    Mr. Garratt. It does. You have the $26,200 and all of the 
individual assistance that you are eligible for under that. You 
also have, unrelated to that $26,200, which is this direct-
housing capability, and that is the provision of a travel 
trailer, mobile home, or in the case of States outside of the 
affected area where we are securing apartments for individuals 
under that authority also up to 18 months, and we can place 
individuals there as well. These are individuals who have 
reached the cap, who no longer can receive rental assistance 
and have to turn back to FEMA for housing assistance.
    Mr. Neugebauer. Are any of these trailers being put back on 
properties that were in the major flooded areas?
    Mr. Garratt. We can put trailers on properties in flooded 
areas, but there is an eight-step process that individuals need 
to go through in order to install a mobile home in a floodplain 
or in an area that is susceptible to flooding. It can be done. 
It is a rigorous process.
    Travel trailers don't have the same requirements as mobile 
homes, and we have some latitude with travel trailers to place 
them in areas that are susceptible to flooding. But, yes, we do 
have that capability.
    Chairman Ney. The gentleman's time has expired.
    The gentlelady from California.
    Ms. Waters. Thank you very much. I am going to try to go 
through this very quickly.
    I am told that there are a number of homeowners who would 
like to get back into their homes, and these are homes that can 
be saved. They have mold maybe in them, or they need to remove 
damaged furniture, trash, what have you. What assistance do you 
have for them?
    Mr. Garratt. Assistance in terms of getting back into their 
homes?
    Ms. Waters. Yes, and helping to remove debris and rubbish. 
Maybe there is a fallen tree in the yard. Maybe there is 
damaged furniture. You have a lot of contracts that are out to 
remove debris. What assistance do you have to these homeowners 
directly who say, I want to go back and clean up my house and 
move in?
    Mr. Garratt. If those individuals have their home 
inspected, a home inspector will come out and evaluate their 
home, will validate and verify the issues that they want to 
have fixed. If they are dealing with--
    Ms. Waters. So they have to call FEMA to get an inspector 
to come out?
    Mr. Garratt. I would hope that everyone who has been 
affected by this disaster will register with FEMA. That is the 
only way that an individual can get individual assistance from 
FEMA. As part of that process, if they were a homeowner, an 
inspector will come out, will evaluate their home and will 
validate and verify the damages to their home, and that 
process--
    Ms. Waters. All right, so we need to tell people to just 
call and get their number and to identify the problem that they 
have to see if you have some assistance for that particular 
problem?
    Mr. Garratt. Absolutely.
    Ms. Waters. All right. On these contracts that you are 
letting out, for example on this debris removal, demolition, 
etc., I understand that you contract with someone who may 
charge you a particular amount. Then they subcontract with 
someone else, and they make money. And then that person is 
subcontracting with someone else, and they make money. And they 
are getting down to where the actual cost of getting the job 
done is very cheap, but we have paid--FEMA has paid 3 or 4 
times as much money as is needed to get the job done.
    Are you aware of the subcontracting that is going on, 
particularly from no-bids or the big companies?
    Mr. Garratt. I am aware of the first level of 
subcontracting that goes on. I am not personally aware that 
this has been subcontracted several levels down.
    Ms. Waters. How can you find out?
    Mr. Garratt. Go back and talk to the individuals and the 
joint field offices who are overseeing those contracts.
    Ms. Waters. I would suggest, particularly since this is the 
taxpayers' money and we all have to be very prudent in the way 
that we spend the money, that you know whether or not your big 
contractors are charging us a sum that is much more than the 
actual cost to get the job done.
    I had some figures--and I don't have it before me. It was 
something like with the removal of debris, it was $44 per 
something, and that they have subcontracted down to the point 
where the job is actually getting done for $11 per whatever 
that is. So you need to know that, and if that is true, you 
need to learn, how do you contract directly for $11 rather than 
$44 and save the taxpayers the money, and let us stop getting 
ripped off by the big boys, okay? Will you take a look at that?
    Mr. Garratt. Yes, ma'am.
    Ms. Waters. Secondly, where are all of the people? What 
cities are they in? How much money is it costing in each city, 
and why is it that the Mayor of New Orleans, for example, or 
Biloxi or these other cities cannot know where their people 
are? Where are the lists?
    Mr. Garratt. We maintain lists. Anyone who registers with 
FEMA, when they register, they tell us two things: They tell us 
what was their original address, and they tell us what is their 
mailing address. So we have that information on individuals. 
And we are, subject to Privacy Act considerations, prepared to 
share that with anyone.
    Ms. Waters. What Privacy Act considerations? Cite that 
Privacy Act that does not allow you to give the mayors that 
information.
    Mr. Garratt. I did not say that the Privacy Act prevented 
us from providing it to mayors, ma'am. I said that we were 
prepared to provide that information.
    Ms. Waters. The mayors don't have it. I was just appalled 
that they don't have the information about where their 
residents are. They have no way of contacting them. People are 
talking about elections and everything else, and you are citing 
some privacy act. What privacy act are you citing?
    Mr. Garratt. I am citing the Privacy Act. But that 
information has been provided to each of the States, ma'am. 
Each State has that information. They can share that with the 
mayors. If the mayors cannot get that from the States, we will 
be happy to engage. But that information has been provided to 
all of the States affected by Hurricane Katrina.
    Ms. Waters. Well, your mayors don't know it, and I am going 
to call today Mayor Nagin and maybe one or two others, and I am 
going to tell them that, first of all, their Governors have it, 
and that Governors could give it to them, but if not, you will; 
is that right?
    Mr. Garratt. Subject to Privacy Act approval, yes, ma'am.
    Ms. Waters. What do you mean by subject to Privacy Act? 
Don't parse words with me. What do you mean? Can you give it to 
them or not?
    Mr. Garratt. If our Office of General Counsel approves 
that, yes, ma'am, we can.
    Ms. Waters. You should know by now whether or not your 
Office of General Counsel is telling you yes or no. Who told 
you that you couldn't give it to them?
    Mr. Garratt. No one has told us we can't give it to them, 
ma'am. There are a couple of considerations--
    Ms. Waters. Then give it to them until someone tells them 
you can't. Do you know what you are doing? If you hold on to 
that information, and they don't have access to it, people--I 
mean, the mayor from New Orleans is going over to Atlanta to 
hold a town hall meeting. Six or seven hundred people are 
there. There are 1,300 people out in California alone. They 
don't have any contact. Nobody is talking to them. They don't 
know what is going on. So I am suggesting to you, don't make it 
a problem.
    I am going to follow up today with the fact that you said 
the Governors have it, and they can get it, and I don't want to 
know about some problem that you have not been told that you 
have. Just get the information to them, and I will make sure 
that the mayors are in contact with you today to find out where 
their information is. It is extremely important.
    Now, I understand there has been a lot of conversation 
about these trailers. We know that the people have got to get 
out of these hotels. I don't know how much money you have spent 
on hotels, but you can't dump them out in the street. And I 
don't care what your deadline dates are. Don't dump people out 
in the street in any city. You have got to get them settled 
somewhere, and transitional housing is only the next step.
    We knew that they could not stay in the shelters or the 
hotels. Transitional housing, trailers, and manufactured 
housing, if you have a city that is not cooperating with you 
and they are not giving you the space or they don't give you 
the land or you can't get the hookups, I would appreciate it if 
you would let the chairman know about that problem, because the 
mayors tell us that you have all the space that you need; they 
don't have any problems in cooperating with you; they have been 
identifying spaces, but you are not putting the trailers down. 
You have the trailers, right?
    Mr. Garratt. We have trailers, ma'am.
    Ms. Waters. You have enough to accommodate all of the 
120,000 trailers--you have 120,000, is that it?
    Mr. Garratt. We don't have those yet. They are in the pipe.
    Ms. Waters. They are in the pipe. So if there are 10,000 
that are needed in New Orleans today, you could move them there 
if you had the space, is that right?
    Mr. Garratt. Not necessarily, ma'am.
    Ms. Waters. How would you do it?
    Mr. Garratt. We have got a contract to obtain up to 
119,000, 120,000 travel trailers and mobile homes--
    Ms. Waters. A contract?
    Mr. Garratt. We have a national contract to have those 
produced and delivered.
    Ms. Waters. Wait a minute. Is this one manufacturer? Is 
this a wholesaler, an in-between person who is going out buying 
them, marking them up and then you are paying the taxpayers' 
money for them?
    Mr. Garratt. Both the national contract and local buys, our 
principal contractor--
    Ms. Waters. Well, wait a minute. Back up so we understand. 
You have one contractor, is that right?
    Mr. Garratt. No, that is not correct, ma'am.
    Ms. Waters. Explain it to us.
    Mr. Garratt. We have a national contract, but we are also 
supplementing that with local buys.
    Ms. Waters. Explain the national contract. What is that?
    Mr. Garratt. It is a contract that was developed, executed, 
at FEMA headquarters for ``X'' number of travel trailers to be 
provided by Gulfstream--
    Ms. Waters. How much is that contract for?
    Mr. Garratt. I am going to have to get that information 
back to you, ma'am.
    Ms. Waters. No, no, no, you tell me now. You know. You have 
to know. That is a lot of money. If you can go out and spend 
millions of dollars on a contract, and you can't come here and 
tell us that, then something is wrong with the way you think 
about this. That costs a lot of money. Who on your staff knows? 
All those people sitting behind you, who knows how much that 
contract costs and who got the contract? Gulfstream got the 
contract. For how much?
    Mr. Garratt. I don't know, ma'am.
    Ms. Waters. Ask all the people behind you who came with 
you.
    Mr. Garratt. Two people came with me, ma'am.
    Ms. Waters. I am sorry. Of the two, do you know how much we 
are spending on this Gulfstream contract? Well, that amazes me. 
That absolutely amazes me. Of that one contract, the national 
contract, how is that contract divided up to get all of the 
trailers? What do they do for you? How do they get you all of 
these 120,000 trailers?
    Mr. Garratt. They produce the trailers in their plants. 
They ship those trailers down to staging areas where they are 
picked up by our individual assistance, IA, technical 
assistance contractors, who then--
    Ms. Waters. Is that a no-bid contract? Don't tell me you 
don't know that. Staff members, was that a no-bid contract?
    Mr. Garratt. I don't know, ma'am.
    Ms. Waters. I respectfully request another 30 seconds. We 
don't know how much the huge, profitable contract is to supply 
120,000 trailers. We don't know how much we paid for that, is 
that right?
    Mr. Garratt. Ma'am, we can certainly get that information.
    Ms. Waters. And we don't know whether or not it was a no-
bid or it was a competitive bid, is that right?
    You are not prepared for this meeting today. You should not 
be here without that information. That is what is wrong with 
FEMA. If you come before the Congress of the United States 
where we are talking about an agency that is not working and an 
agency that is spending our taxpayers' money, and we are not 
getting the results; you can't tell me whether one of your 
major contracts is a no-bid contract and how it works; you are 
not prepared for this meeting today.
    I yield back the balance of my time.
    Chairman Ney. Thank you. I want to ask a quick question to 
just follow up. When decisions are made about, for example, 
manufactured housing, which seems to be one of the best things 
to do for the quickest ability to get people out of there, when 
a decision is made, do you contact the manufactured housing 
people who make this in whatever State, Indiana or down in the 
Carolinas--not you--but does FEMA contact and say, I need ``X'' 
amount of units? Do they do that?
    Mr. Garratt. Yes, sir.
    Chairman Ney. Because manufactured housing, I know, at one 
point in time a few weeks ago, we had asked people in 
manufacturing housing, unless the order goes in, they can't 
produce them. If we say we want 200,000 manufactured houses, 
they can only produce so many, no matter what. So I just 
wonder, in the area of contracting, do you call every 
manufactured housing entity and say, I want to purchase X 
amount, or how do you do that?
    Mr. Garratt. For the contract, for this particular 
contract, again, we typically obtain contracts when we are 
responding to disasters through local buys, is the way that we 
typically do that. We want to use the resources in the affected 
area. So we will do local buys, and we are doing some of that 
down in the affected areas right now, supplementing that 
national contract.
    We did that national contract or started pursuing that 
national contract immediately after Katrina hit, when we 
recognized that there was going to be a huge paucity of 
available housing down there, that we were going to have tens 
of thousands of homes damaged or destroyed and that there was 
going to be a huge population necessary to support, we embarked 
on setting up a national contract to support that. That was 
done out of FEMA headquarters. We wanted to secure a set number 
of travel trailers and mobile homes then that were going to be 
delivered over time, that we could manage over time, getting 
them into the area.
    Chairman Ney. Are you going to get, if you don't know the 
statistics, how many manufactured housing units different than 
the Gulfstream trailers have been ordered? I am told it is 
25,000 have been ordered, is what I am told is an estimate, has 
been ordered. That might be nationally.
    Now, if we anticipate we need more to get people out of the 
hotels, if only 25,000 have been ordered, from wherever they 
have been ordered from, I don't know if you ordered it from one 
place, one contract, if you know you have got all these people 
and you have a time deadline and people are going to be told 
they have to get out, if we need another 30,000 of them, if 
they are not ordered, you aren't going to get them. That is 
just something I think you need to be quite aware of.
    I will move on in a second. I just wanted to ask about a 
precedent setting. Some of the things you are doing, and I 
think we have an unusual, horrific disaster, and so, therefore, 
we have to do some things we don't normally do. The FHA, I 
talked to Secretary Jackson, he extended that 1 year to not 
have to pay payments, and I am not quibbling with that. But by 
him doing that, does that mean that people in Ohio, to pick 
obviously my State, or Georgia, if you are Mr. Scott, or 
wherever you are from, will that same support be extended to 
people who reach a natural disaster?
    We are not going to have the proportion of New Orleans, but 
a person in my district who loses their home, will that also be 
automatically extended, that payments can be paid for other 
people across the country? Maybe not just floods, maybe 
earthquakes. Have you talked about that? What you are doing 
now, will that set a precedent? I am not saying that is bad, 
but will it set a precedent to help similar people in similar 
situations?
    Mr. Garratt. I can't speak for the agency on whether that 
agency is prepared to extend that program for other disasters.
    Chairman Ney. I am sorry, things you do. Let me restrict it 
to FEMA. Things that you are doing now that are outside the box 
that you had to do, that are not the usual things done. Will 
that same support be extended across the United States for 
disasters for people?
    Mr. Garratt. I would say that it may be, sir. We are going 
to look at the lessons learned from this event, lessons that we 
are learning even as we are moving through this event right 
now. If we determine that there is a smarter way of doing 
business and we determine that, as a consequence and a response 
to this disaster, then there is no reason we should not extend 
that smarter way of doing business to the other disasters. But 
that will depend on an innovation-by-innovation case review and 
a determination that that is the smartest thing to do.
    Chairman Ney. But what you are doing are temporary 
extensions. In other words, what FEMA does now is temporarily 
waiving a rule or suspending a rule?
    Mr. Garratt. We have made some accommodations, for example, 
in debris removal. We do not typically, for example, remove 
debris from private property. But given the circumstances of 
Katrina and Rita, given the declaration of a public health 
emergency, given the catastrophic nature of the event, we have 
authorized debris to be removed from private property in 
recognition of that.
    Mr. Davis of Alabama. Mr. Chairman, may I make a 
parliamentary inquiry of the Chair and interrupt the witness 
for one second?
    My inquiry, I note there are a number of individual members 
here who want to ask questions. I did want to make one request 
for solicitude from the Chair. The two of us in the room who 
actually represent States directly affected are Mr. Melancon 
and myself, and I know that he has been given unanimous consent 
to participate.
    Can I ask that the Chair consider at least allowing the two 
of us, given the fact we have a vote coming in about 10 or 15 
minutes, to go ahead of some members who have all spoken 
previously when the two of us have not?
    Chairman Ney. Unless somebody objects.
    Ms. Velazquez. Mr. Chairman, I just have a few questions, 
and I have a meeting on the issue of immigration that is coming 
before us.
    Chairman Ney. I am done with mine.
    If there is no objection, we will move on.
    Mr. Davis of Alabama. Thank you, Mr. Chairman.
    I appreciate that.
    Ms. Velazquez. Thank you, Mr. Chairman, and I want to thank 
the gentleman.
    Mr. Garratt, I would just like to continue to ask you some 
questions about the contracts that have been awarded by FEMA. 
Specifically, you said that you want to do local buys, right?
    Mr. Garratt. We like to do local buys.
    Ms. Velazquez. I would like to know, are you doing local 
contracts? Are you awarding contracts to local contractors?
    Mr. Garratt. Yes, ma'am.
    Ms. Velazquez. Okay. How many Federal contracts have been 
given, of those big contracts, in the area of debris and 
demolition?
    Mr. Garratt. I don't know how many contracts have been 
given in the area of debris and demolition, ma'am.
    Ms. Velazquez. Since FEMA falls within the jurisdiction of 
Homeland Security and is subject to the Small Business Act, you 
are required by law to make sure that those big contractors 
submit a subcontracting business plan to you. Have you seen any 
of those subcontracting plans?
    Mr. Garratt. I am certain that our procurement staff have 
seen those, ma'am.
    Ms. Velazquez. Would you be able to submit those to us?
    Mr. Garratt. I would be happy to take that back to our 
procurement staff, yes, ma'am.
    Ms. Velazquez. I just have one question about--I want to 
ask you, does FEMA provide assistance for mold remediation?
    Mr. Garratt. I am sorry, assistance for what?
    Ms. Velazquez. For mold remediation. Mold.
    Mr. Garratt. We can certainly provide assistance under the 
Other Needs Assistance Program that individuals can use for 
mold remediation. That would fit the criteria for a necessary 
expense and a serious need. It may also be possible that 
assistance could be provided by a health agency, and that 
assistance could potentially be subsidized, but it is going to 
depend on the nature of the facility that is affected and some 
determinations that are made. So the bottom line is, yes, they 
can get assistance under other needs assistance, under direct 
individual assistance. It is possible to get other forms of 
assistance.
    Ms. Velazquez. There is. By FEMA, they could get 
assistance; yes or no?
    Mr. Garratt. Yes.
    Ms. Velazquez. Well, my staff called the hotline, and we 
inquired about assistance, and they said that you provide none. 
So the problem that we have is that it seems like the right 
hand doesn't know what the left hand is doing. There is no 
coordination on this recovery effort, and people and families 
do not know how to navigate the assistance that the different 
agencies are providing, and so, therefore, at the end of the 
day, they are not getting any.
    Mr. Garratt. Any individual who registers for assistance 
with FEMA, when an inspector arrives to evaluate their home and 
they identify the mold issues, that would be an eligible 
expense and they would be eligible for assistance to address 
that expense.
    Ms. Velazquez. Okay.
    Regarding the Federal contracts and subcontracting business 
plan, I just would like to make sure that we get the 
subcontracting plans submitted by a Latino business contractor 
in Mississippi--and I don't have the entire information with 
me. The only thing that I know is that she is a Latino 
contractor who got a contract for $6.7 million, and I am happy 
to know that she is a minority contractor who happens to be 
married to the nephew of the Governor of Mississippi.
    Thank you, Mr. Chairman.
    Chairman Ney. Is there objection to moving to Mr. Davis?
    Mr. Davis.
    Mr. Davis of Alabama. Thank you, Mr. Chairman.
    I want to thank my colleagues for being indulgent with my 
request.
    Mr. Garratt, let me ask you, you have gotten a lot of 
pointed questions from the committee, and that won't stop with 
me, so I certainly want to put you on notice regarding that. 
There are several things I just frankly don't understand about 
this process, and I will be very blunt on the first set of 
questions.
    This decision that was announced in mid-November that my 
colleagues have queried you about, the initial decision that 
people had to get out of these hotels, that honestly strikes 
me, coming a week before Thanksgiving, as frankly one of the 
dumbest decisions I can imagine anyone making in government.
    Who made that decision?
    Mr. Garratt. My name was on the guidance document that 
implemented that guidance.
    Mr. Davis of Alabama. Did you make that decision 
unilaterally?
    Mr. Garratt. I signed that document, sir.
    Mr. Davis of Alabama. I don't mean to offend you. I am sure 
you are a competent, capable person. Although I don't know 
anything about you, I will make those assumptions. But that is 
a pretty tone-deaf decision. It is a pretty clueless decision 
for a number of reasons. My colleagues have mentioned some of 
them, but I will add an obvious one: It was right on the eve of 
the holiday season coming up.
    Do you have the authority to make that kind of decision 
without talking to the temporary head of FEMA?
    Mr. Garratt. Whether I do or I don't, I think that my 
responsibility is to talk to the acting director of FEMA.
    Mr. Davis of Alabama. Did you talk to the acting director 
of FEMA about that decision?
    Mr. Garratt. Yes, sir.
    Mr. Davis of Alabama. And did the acting director of FEMA 
consent to what you did?
    Mr. Garratt. The acting director of FEMA is aware of what I 
did; yes, sir.
    Mr. Davis of Alabama. Did you ask him, is this a good idea 
or bad idea?
    Mr. Garratt. We discussed that decision, sir.
    Mr. Davis of Alabama. And did he agree with you that it was 
a good idea to do it?
    Mr. Garratt. The decision to make December 1st the date 
that we stopped the subsidies of hotels and motels was actually 
made well before that guidance document was issued, sir. When 
we took over the corporate lodging consultant contract from the 
American Red Cross--
    Mr. Davis of Alabama. I understand all that, Mr. Garratt. 
But who made the decision to go with the termination and not to 
seek an extension. You said it was you. I don't want to spend 
my whole 5 minutes on this. I think you have gotten my point. 
It was a remarkably bad decision, frankly, and if you did share 
it with the FEMA director, one of two things occurred: Either 
your chain of command is so loose that he didn't engage in it, 
or that he joined you in the bad decision.
    The second line of questions, you mentioned several times 
that you all do an inventory and you do a census, I guess, of 
people who have registered with FEMA, that you have some kind 
of an inventory of people who register with FEMA. And you said 
you get two pieces of information from them, you get their past 
address and you get their current address.
    Do you ask them what their current housing needs are?
    Mr. Garratt. Yes, sir.
    Mr. Davis of Alabama. And is there an inventory that lists 
these people by housing need in terms of, are they renters, are 
they homeowners, are they behind on their payment? Is that 
level of specificity contained in this information?
    Mr. Garratt. We find out if they are homeowners or renters, 
sir. When I said these two pieces of information, I meant just 
regarding whether--we obtain a lot of information during the 
registration process.
    Mr. Davis of Alabama. So let me ask you about that. You 
ascertain whether they are homeowners or renters. Do you 
ascertain what their specific financial situation is right now 
with respect to their delinquency on any payments? Do you 
ascertain specific information about what their financial 
situation is right now?
    Mr. Garratt. We ascertain their pre-disaster income level.
    Mr. Davis of Alabama. Do you ascertain specific information 
about their status right now in terms of whether or not they 
need help from the government or any number of other things?
    Mr. Garratt. When they call to recertify, after they start 
receiving assistance, an individual calls to recertify that 
they want to continue to receive rental assistance, we will 
discuss that with them at that time.
    Mr. Davis of Alabama. Let me ask you about the Transitional 
Housing Assistance Program that was implemented back in, was it 
September I think, Mr. Garratt?
    Mr. Garratt. Yes, sir.
    Mr. Davis of Alabama. Can you give me an assessment of how 
many people participated in that program?
    Mr. Garratt. In the Transitional Housing Assistance 
Program?
    Mr. Davis of Alabama. Maybe a better question, instead of 
you giving me a number out of the air, what is the status of 
those people? Can you tell me or is your agency able to tell 
whether or not you have an inventory as to how many of those 
people have been placed in permanent housing right now?
    Mr. Garratt. We can tell you that we assisted between 
500,000 and 600,000 of those individuals. In terms of how many 
of them have been placed in permanent housing, I cannot tell 
you that.
    Mr. Davis of Alabama. Why can't you tell me that? Because 
it would seem, and I don't want to go over my time, but it 
would seem that what is striking about this process, obviously, 
you all have an inventory of some sort. You have some 
identifying information about these people. You get some 
information from them, and I can't understand why you wouldn't 
get the full waterfront. I can't understand why you all don't 
have adequate information regarding the status of the people in 
the program.
    I guess I will just close, Mr. Garrett, on this point, 
because I know my other colleagues do want to ask questions. 
All of us understand the gentleman from Texas' point earlier 
that, well, yes, something bad happened, but at some point, 
these people have to get their lives together. Let my give you 
briefly a different perspective on that, sir.
    Everyone on the other side of the aisle and our side of the 
aisle has spent the last 4 months talking about all of the 
failures of government, and, yes, in candor, the people on our 
side talk a lot about your agency and the Federal Government.
    People on the other side like to talk a lot about the State 
Governor, like to talk a lot about the mayor, but the one 
consensus that we all seem to have is that government really 
messed this up.
    We have something called a social contract in this country. 
And if we have a broad consensus, Mr. Garrett, that multiple 
levels of government failed, municipal, State and Federal, that 
means something basic to me. It means that they failed not in 
the abstract, but they failed people, they failed human beings. 
So isn't it reasonable to you that we owe those people 
something that we wouldn't owe them in the ordinary course of 
life?
    Mr. Garrett. Yes, sir. And we owe that same level of 
support to the victims of any disaster anywhere.
    Chairman Ney. The time is expired.
    Is there still a unanimous request to--without objection, 
we will recognize the gentleman from Louisiana, Mr. Melancon.
    Mr. Melancon. Mr. Garrett, with the trailer issues, a 
number of things, I guess, that come to mind.
    We had trailers that we bought for Florida last year for 
the hurricane. It is my understanding that they were auctioned 
off as they became available; is that true?
    Mr. Garrett. We do auction off trailers, yes, sir.
    Mr. Melancon. So we have 1-year-old trailers that we 
auctioned off and then turned around and we are buying new 
trailers now. Is there no plan within FEMA to possibly store 
and maintain these? Because hurricanes are pretty common now 
and other disasters where they could used. Is there no plan to 
do this at all?
    Mr. Garrett. We store and maintain them at multiple 
locations now, sir.
    Mr. Melancon. Are you talking about the trailers from 
Florida and previous disasters, or are you talking about new 
trailers?
    Mr. Garrett. I am talking about either rehab trailers or 
new trailers. We store both.
    Mr. Melancon. How many trailers did you rehab from Florida 
last?
    Mr. Garrett. I don't know those figures, sir. We can get 
them to you.
    Mr. Melancon. How many did you auction? Do you know that?
    Mr. Garrett. I don't know that either.
    Mr. Melancon. If you can get that to me, also. Now, Hope, 
Arkansas has a contract for $25,000 a month to store trailers, 
and nobody from FEMA seems to be able to tell anybody how many 
trailers are there, how many are coming through. I think 
between Texarkana and Hope, which is a staging--off staging 
area I think is the proper term--is there, I mean, do we not 
know how many--
    Mr. Garrett. The Hope staging area is largely, if not 
exclusively, being used for mobile homes and not travel 
trailers. It turns out that there is not the demand for mobile 
homes in the affected area that there is for travel trailers. 
As a result, we have some excess supply, and we are storing 
those at the Hope site.
    Mr. Melancon. In south Louisiana the demand is for travel 
trailers because people would like to get back to their 
property, start cleaning it up and establishing their lives if 
that is at all possible, particularly if their houses are 
salvageable, and even if they are not, where some of them are 
just completely gone. There seems to be a great difficulty with 
FEMA. They have to come in, they have to establish the 
electrical supply, they have to make sure there is sewage and 
water.
    Now, if I understand the concept of travel trailers that 
people use for campers, are there not holding tanks to these 
trailers?
    Mr. Garrett. Yes, sir.
    Mr. Melancon. Are there water tanks on these trailers?
    Mr. Garrett. There certainly can be.
    Mr. Melancon. A 5-KW generator in my mind would probably 
run the air conditioning and the lights, and the stoves would 
probably run on propane; would that be a fair guess?
    Mr. Garrett. My understanding was that we were actually 
moving away from the propane units, sir.
    Mr. Melancon. Okay. I guess where I am trying to go is, I 
spoke with the president of the parish of St. Bernard. They are 
averaging, I believe, one trailer per day that they are 
spotting in St. Bernard Parish. At that rate, it will probably 
be in the next century before the folks will be able to get 
back and get started. And I have heard complaints from people 
who had several acres of land in Blackman's Parish, it is 
family owned land, they wanted to put four trailers or houses 
within a mile, daughters, son, the mother, and they are 
refusing to let them do that. Now, there are people camped out 
in pup tents in front yards from Mississippi and Alabama all 
the way through Louisiana, and having a travel trailer with a 
bed to sleep in, even if they didn't have air conditioning and 
they didn't have running water at this point in time, they had 
a septic tank, that is way ahead of the curve. But yet we 
refuse to let these people into those trailers until they are 
completely sited.
    And then one of the things that I have been seeing when I 
fly into Baton Rouge, there are several hundred trailers in 
Baton Rouge. That is not going to get those people back into 
New Orleans and St. Bernard and Plaquemine Parishes where their 
homes are, and the commute, with traffic, will probably be an 
hour-and-a-half, 2 hours a day. They will never reestablish 
that. It is almost as though there is an intent there to not 
let them get established back.
    You said there is about 40,000 trailers. Do you have the 
numbers per State that are sited and per parish and per county?
    Mr. Garrett. Yes, sir. By State, let's see, Louisiana 
travel trailers, projected needs 80,000, capacity on leased 
sites, 23,482. Capacity on leased sites is the sum of leased 
commercial pads plus industry sites plus leased group emergency 
group site pads, plus private sites.
    Cumulative units on pads, 20,686. Cumulative ready for 
occupancy, 6,099. Units occupied 13,772. Occupancy rate of 86 
percent.
    Mr. Melancon. Is that Louisiana or is that all States?
    Mr. Garrett. That is travel trailers in Louisiana.
    Mr. Melancon. Because you are giving me pads, you are 
giving me on sites, you are giving me at locations. I guess I 
need to get you, if you could provide that for me in written 
form rather than run through all those--
    Mr. Garrett. I would be happy to do that.
    Mr. Melancon. Because my problem that I am finding is that 
they are not getting the trailers to their homes, to their lots 
so that they can restart their lives and get their places back 
up.
    The cost per trailer is about $20,000 average for these 30-
foot trailers, or what is the average cost? Don't you have a--
    Mr. Garrett. That is the reasonable average cost, but we 
have also been getting them--I would say between $14- and 
$20,000 is probably a good--
    Mr. Melancon. So if you had 125,000, average price $18,000, 
that might give you the number you have been looking for?
    Mr. Garrett. I think the number for the national contract 
is less than that. Some of our local buys--
    Mr. Melancon. They are staged, and then they are hauled in. 
Do you know what the price per trailer contract is for hauling 
them from wherever it is from the staged area down to where 
they are going to be located, what the cost is per trailer to 
make those moves?
    Mr. Garrett. We have those figures, sir--
    Mr. Melancon. I am told it is $4- to $5,000 per trailer.
    Mr. Garrett. To haul and install?
    Mr. Melancon. Yes, sir.
    Mr. Garrett. That would seem a little high to me, but I 
would be happy to verify that.
    Mr. Melancon. One of the other complaints I am getting is 
rotation of personnel in and out. A lady called that I talked 
to last night, she was trying to get her claim adjusted for 
damage from Katrina. Then the person she was dealing with was 
rotated out. In the meantime, the next person comes back in and 
he is a Rita inspector, he is not a Katrina inspector, so she 
hasn't gotten anything completed on the storm damage that 
occurred during Katrina, and the guy is saying well, we have a 
problem because you have to finish that up before I can help 
you with Rita.
    The parish presidents and the people who are dealing with 
them, they finally get somebody on the ground, and after about 
2 weeks they are starting to understand the demographics and 
the geography and the problems, and then you rotate them out 
and they start from scratch. Grand Island, Louisiana rotated 
out a lady who had worked on the list of those people who could 
occupy the trailers, all of a sudden they rotated her out, the 
new person came in and nobody knew where the list was. The 
mayor took a crowbar and was getting ready to break into the 
trailers to let his people in them. It is as though the agency, 
instead of taking the initiative and saying let's make it work, 
it is like if it is not written that we can do it precisely, we 
are going to opt not to do it. And that seems to be the 
mindset, and that is where the frustration level is.
    As I told the committee and Governor Barbour yesterday, and 
he agrees, Congressman Pickering made the statement that the 
people had moved into a state of depression. My people in 
Louisiana are either behind that curve or ahead of it because 
they are PO'd now, they are not depressed anymore, they are 
just flat out mad, and it is getting worse.
    Chairman Ney. The time is expired, but would you like an 
answer?
    Mr. Melancon. No. What I will do, if I could, Mr. Garrett, 
I will make a list of the some of the things, numbers and such 
that I need and I will get them to you, and if you could get 
them back to me I would appreciate it.
    Mr. Garrett. I will get them back to you quickly.
    Chairman Ney. Actually, can I intervene on one point you 
made, I would like to see if we can get a response on it, on 
the coordination of what the Congressman is saying about the 
fact that people are moved in and they are moved out. Have you 
heard this before, that this happens?
    Mr. Garrett. Yes, sir, we have, not only in this disaster 
but in previous disasters.
    Chairman Ney. Because it has happened to us back home. 
Well, can you put a stop to that? You know, can you have the 
continuity? Have you taken that step?
    Mr. Garrett. We are working towards that, sir. We recognize 
that is an issue. Our problem is that a lot of the individuals 
who are currently out in the field right now are individuals 
from the various 10 regions, permanent full-time individuals 
who have been down there for three-and-a-half months. What we 
typically do in a disaster is we will often flood that disaster 
with permanent full-timers, and then over time backfill them 
with our Disaster Assistance Reservist Corps.
    In this particular case we have been pretty stretched 
across the country, and we have had individuals in a lot of 
these positions for a lot longer period of time than we would 
like, and so we are getting around to slowly rotating them out. 
We are also rotating people out just for some R&R. But our 
long-term strategy for this particular area is the same 
strategy that we employed in Florida last year, and that is to 
develop long-term recovery offices with individuals who are 
assigned to that office and will be there for the long term and 
will be able to provide that kind of continuity. We are not 
there yet, but that is what we are moving towards, and we hope 
to have that kind of continuity in place here in time.
    Chairman Ney. Thank you.
    Mr. Melancon. Thank you, Mr. Chairman.
    Chairman Ney. The gentleman from Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Garrett, let me ask you--I want to be clear, is it 
accurate to say that you made the decision, not signed off, but 
that you made the decision to evacuate the evacuees from the 
hotel rooms?
    Mr. Garrett. I made the decision, and I signed the guidance 
for that that made that official. I would not characterize it 
as evacuating individuals from hotels, I would characterize 
that as that was the date by which we had planned to stop 
subsidizing hotel room stays. However, I also want to make a 
point--and I think it is an important point to make here--that 
anyone who was a--if FEMA determined that an individual was 
eligible for assistance from FEMA, had not received that 
assistance yet, FEMA was prepared, and is prepared now, even 
beyond the December 15th date to continue on a case-by-case 
basis subsidizing individuals in hotel rooms until they receive 
the assistance that they are eligible for and due from FEMA.
    By the same token, if we have individuals in our queue who 
are in what we call the pending queue, these are individuals 
whom we haven't made an eligibility determination for yet, we 
will continue to subsidize those individuals beyond December 
15th until we can determine if they are eligible, and give them 
rental assistance, at which point they will be responsible for 
taking care of themselves, or we determine that they are not 
eligible for FEMA assistance, at which point we would refer 
them to HUD and to the KDHAP program.
    Mr. Scott. Now, there are two dates that are amounting to 
some confusion in my mind as far as extension of the deadline. 
You mentioned a December 15th date as the extension for the 
hotel stay, but also there is a January 7th date. Can you 
explain the difference?
    Mr. Garrett. Yes, sir. We initially had established--on the 
initial guidance that went out we established December 1st as 
the date that we would stop the subsidies. And we had 
authorized two States, Mississippi and Louisiana, to apply for 
extensions up until January 7th. A week later we amended that 
guidance and extended what was the original date of December 
1st to December 15th. And we preserved the January 7th date, 
but we also opened that up to an additional eight States who 
had the highest number of evacuees in their States.
    Mr. Scott. Now, what you have just said is ample evidence 
of why the people are so confused. I mean, that--to go through 
that minefield that you laid of dates, how it applies, you 
know, even for me just sitting here, I had a little problem 
comprehending and following all of the dates. I can imagine 
what it would be for people who are actual victims of it.
    But from my own point, then, January 7th is that foremost 
date at this point that you have extended for folks to be able 
to stay in the hotels?
    Mr. Garrett. For 10 States, sir.
    Mr. Scott. For the 10 States. All right.
    Now, now that you have extended the hotel deadline until 
January 7th for those specific States, those 10 States, does 
that mean that the 403 program's deadline is also extended to 
permit the evacuees to enter into this program and enter 
contracts into this program?
    Mr. Garrett. First, just a point of clarification is that 
those 10 States are authorized up until January 7th. I am 
personally aware that only one State has submitted a plan and 
has received the authorization to go to January 7th at this 
point. We have pending plans from the others, but they 
certainly have that capability.
    In terms of the 403 and the extension, yes, sir, as long as 
individuals continue to be subsidized in hotels and motels as 
part of an organized strategy, then the States and locals who 
are hosting those evacuees will continue to have the authority 
to use 403 to place them in apartments during that period of 
time.
    Mr. Scott. How are you getting that information out? How 
are you publicizing that information?
    Mr. Garrett. A couple of ways, sir. In terms of the 
information to the hotel occupants themselves, we are putting 
flyers under the doors of every one of the occupants. Corporate 
Lodge Consultants contacts the hotels, provides them those 
flyers, provides the direction to do that. And we have done 
that multiple times. We also have teams who are going out, not 
only the Federal Government or joint teams with the States and 
locals, but States and locals are doing this themselves as 
well, knocking on doors, advising individuals about the 
deadline, what their options are, that they need to register; 
if they haven't received assistance yet, what their options 
are.
    Mr. Scott. Now, as we move through that to the 403 
programs, you stated--I think you released in November--that 
the payments under this section 403 program will end March 1st. 
Is that deadline still accurate?
    Mr. Garrett. Yes, sir.
    Mr. Scott. Well, let me ask you this; how will this impact 
cities like Atlanta and Houston and Dallas that have already 
entered into 1-year contracts with the property owners? Will 
these commitments be honored to full term?
    Mr. Garrett. Well, if the commitments aren't honored to 
full term, then the provisions of the contract that allow that 
contract to be terminated, to include whatever those 
termination or penalty fees are, we will honor those terms. So 
if an individual who receives individual assistance by March 
1st, is now receiving rental assistance at that point, elects 
to take that rental assistance and move to another city, 
leaving that apartment vacant, we are not going to pay for the 
full term of that apartment for 12 months. What we are going to 
do is we are going to tell them you need to terminate that 
apartment, we will pick up and reimburse you for whatever 
penalties you have to pay for terminating that apartment early.
    Mr. Scott. Let me go to another point, because there has 
been a lot of discussion about monies that have been given to 
evacuees for their rent, to help with the rent, but they have 
used it on other things. And I want to find out from you that 
some of these apartment owners have even forgone the rent and 
have done so under the belief that they would be compensated by 
FEMA directly for housing assistance or through the evacuee 
once the evacuees receives this housing assistance money, but, 
however, in many cases where the funds were provided directly 
to the evacuees, the money was spent on more urgent needs, such 
as food, clothing, and medicine. Will FEMA advance money now to 
evacuees to pay their back rent?
    Chairman Ney. The time is expired, but if you would like to 
answer that question.
    Mr. Garrett. I would like to answer that question.
    We have issued guidance to our national processing service 
centers, we recognize that that is an issue, that the initial 
money that went out to the evacuees was sent to them or put in 
their bank accounts in advance of information that described 
what the intended use of that money was for. We also recognize 
that these individuals may have had compelling other needs at 
that particular time. The ones you mentioned, they needed food, 
they needed clothes for their kids. In recognition of the fact 
that these individuals who received that first increment of 3-
month rental assistance may have needed that funding for other 
things and may not have been notified about what the intended 
use of that was for, we have authorized our NPSC's to recertify 
those individuals if they will just make a self-certification 
statement. All they need to do is certify one of those two 
things occurred, either I was not notified what the intended 
use of this money was for prior to its receipt, or I had these 
compelling other essential needs that I needed to fulfill with 
that money. If they will do that, we are prepared to recertify 
them for rental assistance.
    We are also prepared for individuals who need to pay, for 
example, a first month's rent with their 3 months worth of 
rental assistance and therefore only have really 2 months of 
rental instance left, we are prepared to recertify them at the 
end of that 2-month period. They are not going to lose a month 
as a result of that.
    So we have made some accommodations here to recognize the 
situations that these individuals are in and to try and make 
sure that an individual is not penalized because they had to 
make what was--even an individual who was given--they had to 
make a difficult decision, and it may not have been the 
technically appropriate decision, but it was the smart decision 
for this individual and for their family. They made a decision, 
and we are not going to penalize those individuals for doing 
that.
    So again, they will be recertified, they will be eligible 
for recertification of that rental assistance, they are not 
going to lose that source of funding. And we will continue to 
recertify people--and this is a point that we want to make to 
landlords all over the United States, which is that as long as 
an individual--I mean, just an individual who receives an 
initial allotment of rental assistance from us, and we are 
prepared to on a case-by-case basis, at the request of any 
individual who we are providing rental assistance to, talk to 
their landlords and explain how this works. This is not just a 
three months and they are out. This individual, in a situation 
that they are in, is going to be working on developing a plan 
to find a permanent housing plan for themselves, and they are 
also, during this period of time, hopefully going to be working 
to try to find a form of employment. We will continue to 
subsidize those activities up until the point that they are 
self-sufficient, and we will tell the landlord that, that until 
this individual is self-sufficient we will continue to provide 
them rental assistance. Once they achieve self-sufficiency, 
then our expectation is they are no longer going to be 
receiving rental assistance from us because they have achieved 
that self-sufficiency. And that is what we want to do with all 
the individuals, is we want to provide assistance to them to 
help them reach a point where they can be self-sufficient. And 
we are prepared to do that as long as we are legislatively 
authorized to do so.
    So until they reach the cap on rental assistance, then they 
are going to be authorized for that. And even if they do reach 
that cap, we have the capability to provide direct housing 
assistance to that landlord for up to 18 months. So they have 
got some options, and we are going to be prepared to work with 
all of them to make sure everyone is taken care of.
    Chairman Ney. We are going to move on to Mr. Green, but I 
just want to take one second, if the gentleman will yield. Just 
to clarify, I think, what I heard.
    FEMA will continue to pay rent until a person is self-
sufficient? Now, do you need a law change to do that? Did you 
say that FEMA will continue to subsidize--I am just trying to 
clarify what you had said.
    Mr. Garrett. We pay rental assistance to individuals. It is 
typically in most disasters paid on a monthly basis and they 
recertify monthly; in this disaster, because of the size of the 
population, we are doing 3-month increments. So when they come 
back, as they are approaching the end of that 3-month period to 
recertify and get another 3 months, if they have not achieved 
self-sufficiency at that point and if they still have room 
under their cap for that $26,200 they will continue to receive 
rental assistance from FEMA.
    Chairman Ney. But once that $26,200 runs out, you are not 
going to continue after that?
    Mr. Garrett. We can't continue rental assistance for those 
individuals--
    Chairman Ney. Unless you had a law change by the Congress.
    Mr. Garrett. Correct. But we do have authority to, under 
direct housing, essentially take over that lease and pay that 
lease directly to the landlord.
    Chairman Ney. For how long?
    Mr. Garrett. Up to 18 months.
    Chairman Ney. Thanks. I just wanted to clarify.
    Mr. Green.
    Mr. Green. I thank you, Mr. Chairman. And Mr. Garrett, I 
trust this will be an amiable, amicable exchange that you and I 
will have because I truly am interested in some very specific 
information.
    Let's start with about $600 million in contracts, 8(a) 
contracts that are to be let, and proposals are due on December 
30th. Are you familiar with these contracts that I am talking 
about, the 8(a) $650 million broken down into four separate 
contracts for various States that have been impacted by 
Katrina?
    Mr. Garrett. Yes. I have some information in front of me. 
We are talking about the contracts, the maximum value of each 
will not exceed $100 million?
    Mr. Green. $150 million is the information I have. Do you 
have $100 million?
    Mr. Garrett. Yes.
    Mr. Green. How can we acquire information in terms of what 
the scope of the work is for each of these 8(a) contracts?
    Mr. Garrett. Each contract will provide for the provision 
of maintenance and deactivation of approximately 6,700 
temporary housing units. The period for performance will be 5 
years from the date of the order.
    Mr. Green. Maintenance and deactivation?
    Mr. Garrett. Correct.
    Mr. Green. Is this information codified someplace so I may 
have it in hand so as to carefully review and make good use of 
it? For want of better terminology, is it codified someplace?
    Mr. Garrett. I am certain that it is, sir.
    Mr. Green. May I have someone on my staff get that 
codification from you as quickly as possible?
    Chairman Ney. Could I make a note on this, too? And I won't 
take it off of your time. The gentlelady from California had 
requested, too, about information. Any information requested 
today, you can provide it to the member requesting it and also 
to the committee so we can then disperse it to all members. I 
just wanted to--any of the questions today, provide to the 
members asking and to the committee so we can disperse it to 
all members. Thank you.
    Mr. Garrett. I am have advised that until that appears on 
FedBusOps website, that we can't provide that to you directly.
    Mr. Green. So until it is published on a website there will 
be no means by which I can acquire it, other than what you will 
tell me today?
    Mr. Garrett. That appears to be true, sir, yes. And I have 
got a little cheat sheet here in front of me. I will be happy 
to provide you information from that.
    Mr. Green. Immediately afterwards why don't you and I visit 
about the cheat sheet and get as much of that information, and 
then I would like to explore some other avenues by which we may 
proceed.
    Quickly now with Houston, and all of the contracts that 
have been let for 12 months. To recap, you will either honor 
the 12-month contract, or if the contract is not honored, you 
will then honor any penalties associated with the contract. 
This is true?
    Mr. Garrett. That is true.
    Mr. Green. Houston has been styled a model city for this 
type of unfortunate circumstance, I think you have as much as 
said so yourself. Given that Houston is a model city, why would 
we not simply try to replicate what Houston was doing, and that 
was with the 12-months contracts, as opposed to negate what 
Houston did and move to the 3-month contracts?
    Mr. Garrett. No one was trying to--or there was certainly 
no intention to negate any of the very lean forward actions 
that Houston has been engaging in. Authorizations for cities to 
enter into leases for up to 12 months was not a method of 
encouraging cities to do that, it was recognition of the fact 
that they might not be able to get leases at less than 12 
months.
    Mr. Green. Here is the concern we have, Mr. Garrett, two--
and possibly many more, but two quickly--one, your image is 
being tarnished with landlords once they hear about a 12-month 
arrangement and find out that you are now willing to move to a 
3-month arrangement and pay the penalties. That does not 
encourage them to continue to do business with you.
    Two, even if you are so kind as to pay the penalties, you 
still have a person who has to find a new place to stay in an 
unfamiliar environment, possibly with children, possibly 
without transportation. It still places the person in a 
position where he or she is having to do something that may not 
be done within a reasonable amount of time.
    Mr. Garrett. I would hope that is not the case. I would 
hope that the individual--again, what we are talking about, 
when we are talking about extending this contract out to the 
full 12 months, is just converting from having that contract 
paid by the State or by the jurisdiction, using 403, to being 
paid by the individual. So if an individual is in an apartment 
that was leased or--
    Mr. Green. Because my time is running short, time is of the 
essence, let me--you made a good segue now for me as to what is 
happening now in Houston. We have approximately 105,000 people 
in apartments, and that will escalate to approximately 130,000 
people. Will you transition all the 130,000 people by your 
deadline?
    Mr. Garrett. We certainly hope to achieve that, yes, sir.
    Mr. Green. And for those that have not been transferred, 
what will happen to them? Transition.
    Mr. Garrett. The same would apply to an individual on March 
1st. Any individual, who through no fault of their own, if they 
are in an apartment that is being subsidized by the State and 
they are eligible for FEMA assistance and they have not 
received FEMA assistance at that point, we would continue their 
subsidy under that program until they are converted to the 408 
program. So no one is going to be dropped from that program 
because they were not converted to the 408 program.
    Mr. Green. So your statement, for the record, is people 
will be transitioned by March 1st or some point thereafter if 
they have not been transitioned on or before March 1st?
    Mr. Garrett. If they are eligible, FEMA's goal is to reach 
every single one of those individuals, determine their 
eligibility, if they are eligible for FEMA assistance, begin 
providing them that assistance. At that point they would be 
responsible for taking over that lease and making the monthly 
payments on that lease. If they are not eligible for FEMA 
assistance, they would be referred to HUD and to HUD's KDHAP 
program.
    Mr. Green. The persons who have not transitioned--now I 
think I am hearing you give me something more than they will 
simply remain in the program they are in until they can be 
transitioned. You are saying that something else may happen to 
them as well?
    Mr. Garrett. Again, three things are going to happen. We 
are going to determine their eligibility and we are going to 
give them, provide them the assistance that they are due, their 
rental assistance. At that point they are going to be 
transitioned off of 403, and they will, using the rental 
assistance that they are given, be responsible for taking over 
the rental payments on the apartment that they are in. If they 
don't want to stay in that apartment, they are certainly free 
to move out of that apartment and find other accommodations to 
use that rental assistance.
    They can also be transferred over to KDHAP program, under 
HUD's program. Or, as we discussed prior to this, was if that 
individual is still in a state of limbo, if by March 1st we 
have an individual who is either pending, we haven't determined 
their eligibility, or they are waiting for FEMA assistance, we 
would continue to subsidize that individual or those households 
until that determination is made and that assistance is 
provided to them.
    Mr. Green. One final question as a follow up to our first 
line of inquiry.
    How would one who proposes to acquire one of these 8(a) 
contracts do so in a prudent, judicious fashion without the 
information that we are making--we are asking you to share with 
us?
    Mr. Garrett. That information will be made available to 
everybody who wants to compete for those contracts at the very 
same time on the FedBusOps announcement.
    Mr. Green. Notwithstanding the December 30th deadline for 
the proposals?
    Mr. Garrett. We have to double check on the status of 
whether that announcement is even out yet. It may be out now; I 
am not personally aware that it is. But if that deadline--or if 
a determination is made by our procurement officials--
    Chairman Ney. Time is expired.
    Mr. Garrett. --that a deadline needed to be extended, that 
could be done.
    Mr. Green. Thank you, Mr. Chairman.
    Chairman Ney. The answer on that--
    Mr. Green. Yes, sir, thank you.
    Chairman Ney. Mr. Cleaver.
    Mr. Cleaver. Again, thank you, Mr. Garrett, for being here.
    And the questioning, I hope you understand everybody's 
frustrated. I have spoken with one of the women sitting here, 
and of course they are frustrated and want answers to 
questions. And everyone--and we want them, too. And so even if 
we are noisy, we are not going to be nasty, so just bear with 
us.
    Are you familiar with E.L. Quarantelli?
    Mr. Garrett. No, sir.
    Mr. Cleaver. He runs the Disaster Research Center out of 
the University of Delaware. I think one of your staff persons 
seems to be. You know, he has been doing this since 1949, and 
he wrote, this is the worst response to a disaster during his 
time of research. And so you understand that people are 
frustrated.
    One of the--and this seems so simple, but what is the 
status of reuniting children with their parents? We have 
children, as I am sure you know, separated from parents. In 
Kansas City, Missouri, where I am from, we had some children 
who came there and ended up in the Children's Mercy Hospital, 
but we had no idea where their parents were, and I am not sure 
if they know even today. So is there some kind of process--
    Mr. Garrett. We have been working with the National Center 
for Exploited and Missing Children, and they provided us with a 
list of names. We have, on behalf of that center, done call 
outs to individuals, names that match up against the list of 
individuals that we have in our system, and we have locations 
for those individuals, and we have contacted the individuals or 
attempted to contact them, if we can, at the address at which 
they are listed and advise them that someone is looking for 
them at the National Center for Exploited and Missing Children 
and would like to talk to them and provide the contact 
information for that, either the individual or the guardian.
    Mr. Cleaver. Do you have a number of children who are still 
disconnected from parents or grandparents or guardians?
    Mr. Garrett. I think the numbers--and I don't have them 
here, but we can certainly provide them to you--are the numbers 
that we were provided by the National Center for Exploited and 
Missing Children. The number that we were successful contacting 
and the number, obviously, that we were not. We can provide 
those numbers to you.
    Mr. Cleaver. You know, one of the problems is that the name 
of the agency trying to do the connection, Missing Or Exploited 
Children, people don't like to respond to that is why we have 
problems with the census in the central city.
    But the other issue that I wanted to relate on the same 
question, what would be the feasibility and practicality of 
having all the children in one area and trying to reconnect or 
to receive all of the children and put them in one area so that 
everybody in the country knows that if there is a child missing 
from Katrina or Rita, that if you go to Baton Rouge or St. 
Charles, all the children are there. Is that practical?
    Mr. Garrett. I am not prepared to make a practicality 
assessment of that. I will certainly take that back and we can 
knock that around, but I am not sure what the issues--I think 
there might be a number of issues involved with trying to 
relocate en masse a lot of children.
    Mr. Cleaver. You know what, I am moving my Congressional 
office at the first of the year because I can't get people to 
come in. You know why? Because it is also the office for the 
U.S. Marshals, the FBI, the U.S. Attorney, and so I don't get 
anybody to come in. I mean, they don't want to come in to the 
Federal courthouse, even though it is cute. So, you know, 
Missing and Exploited Children sounds like an agency that is 
going to do something to you. But if you would explore that.
    The other, kind of related is do you have any kind of list 
of the people with special needs, the disabled? When you look 
at what happened there in the aftermath of Katrina, there were 
people--and it sends chills to me thinking about it--dying in 
wheelchairs, people were watching folk die because they 
couldn't walk and so forth. So even in the aftermath--and I 
think is it Justice After the Flood or something like--Justice 
After the Storm is kind of the theme they have. And so I am 
thinking about the disabled. Is there any special action being 
taken for people who have special needs?
    Mr. Garrett. When individuals register with FEMA, if they 
self-identify themselves as having a disability, we can capture 
that information and we can begin caseworking those 
individuals, again on a case-by-case basis.
    Individuals within the impacted areas are also being 
caseworked on a case-by-case basis. We recently upped the 
number of ADA compliant travel trailers and mobile homes that 
we are providing to Louisiana to address what are the unmet 
needs of a sizeable population of the disabled.
    So we are working that both at the ground level and at the 
regional and headquarters level to identify individuals, and 
based on where they are located, what their particular needs 
are, either working directly with them or making referrals to 
the appropriate social services to work with them.
    Mr. Cleaver. How many evacuees have registered with FEMA 
thus far?
    Chairman Ney. The time is expired, but if you would like to 
please answer that question. Thank you.
    Mr. Garrett. More than two million. I would actually have 
to add those figures up, but I can give you a figure at the end 
of this.
    Mr. Cleaver. But roughly two million?
    Mr. Garrett. Yes.
    Mr. Cleaver. That is fine, thank you.
    Chairman Ney. The gentlelady from California.
    Ms. Lee. Thank you, Mr. Chairman.
    A couple of things. Let me ask you, with regard to the 
homeless population, for example, following up on Mr. Cleaver's 
question. We have learned--and I think it was as a result of 
the briefing with FEMA--that there were what, about 842 Katrina 
survivors living right now in homeless shelters. And I am just 
wondering, in terms of people who were homeless prior to this 
disaster, as well as those who are now on the verge of becoming 
homeless, what type of services, not only transitional housing 
assistance, but the type of supportive services that either 
FEMA or HUD or whomever is providing.
    And secondly, I just want to ask you about rent gouging? We 
have heard of instances where of course landlords are taking 
advantage of this unfortunate circumstance and gouging, and I 
wanted to find out if FEMA is working with HUD to establish 
some way to prevent that from happening?
    And finally, a question I have--and I am just not sure what 
the answer is, and forgive me if you have answered this 
before--in terms of local rents in high cost areas, such as--
and we have, like I said, probably as far as we can tell maybe 
1,200 individuals in just the Oakland Bay area, and the cost of 
living, the cost of rent is enormous, I think a two-bedroom 
apartment you probably can't get for under $1,500 a month. And 
I am trying to find out how FEMA adjusts its housing assistance 
for high cost areas where individuals are living.
    Mr. Garrett. I will be happy to address all three of your 
questions or areas you are interested in, and I will start with 
the last one first, in terms of the cost of living.
    FEMA initially gave out, under the Transitional Housing 
Assistance Program, 3 months at a national fair market rent. 
However, that was only for the initial allotment of rental 
assistance. From that point on, when an individual came back or 
comes back to FEMA and recertifies for rental assistance, they 
will be recertifying based on where they are living now, where 
they have established that temporary residence, and we will 
from that point on provide them rental assistance at the 
prevailing FMR for wherever they are living. So someone living 
in Oakland will get what that FMR is, not what the Tulsa, 
Oklahoma FMR is or what the national FMR is. And that will be 
effective with the very first recertification, and from every 
certification from that point on.
    In terms of rent gouging, it is because we are only 
providing rental assistance to individuals at the fair market 
rate, it makes it a little more difficult for someone to gouge 
an individual who is basically on a fixed rental income at that 
point. We recognize that that does take place and it has taken 
place; that is largely anactivity that we make known to--if we 
become aware of it, we will let, through our joint field 
offices, through our region's States and jurisdictions, make 
them aware of the fact that we believe this may be going on. 
But that is largely up to the States and local jurisdictions to 
tackle in terms of addressing that rent gouging at a 
jurisdictional level.
    And in terms of the homeless, that is a more complicated 
issue. For the predisaster homeless, they don't have as many 
options as an individual who was a homeowner or who was a 
renter. For example, they are not going to be eligible for 
rental assistance, they are not going to be eligible for home 
repair. They may potentially be eligible for some types of 
other needs assistance. If they had personal property that they 
lost as a result of a disaster, they may get some funding 
there. But largely, from an individual assistance standpoint, 
they are not going to receive nearly as much as someone else--
    Ms. Lee. Let me ask you this, because they were homeless in 
a disaster area where--they were homeless for, unfortunately, 
many reasons, but this compounded their homelessness and had to 
move from one homeless venue to another. Isn't there any way 
that FEMA can perhaps look at grandfathering in predisaster 
homeless individuals who were displaced to provide some type of 
assistance? Because it is unfortunate they didn't have a 
shelter, but now in fact because this disaster has hit so many, 
they should be eligible for whatever transitional housing 
assistance that is available for those who had to be displaced. 
And I think that FEMA needs to look at that and come up with 
some recommendations on how to do that.
    Mr. Garrett. Predisaster homeless are referred to the HUD 
program, to their KDHAP program.
    Ms. Lee. Well, what is HUD doing? Since they are not here 
maybe you can answer. Don't you coordinate with them?
    Mr. Garrett. We do. And we make referrals to them.
    Ms. Lee. Do you know what they are doing?
    Mr. Garrett. They work with the individuals who are 
referred and through their public housing authorities to find 
housing for those individuals.
    Ms. Lee. Since they are not here, could you ask them, in 
your response to all these questions, what they are doing to 
make sure that people who were homeless and were displaced 
receive the same type of assistance as those who had shelter 
over their heads, please?
    Mr. Garrett. You bet, ma'am.
    Ms. Lee. And if they are not doing anything, would you let 
us know?
    Mr. Garrett. Yes, ma'am.
    Ms. Lee. Thank you.
    Chairman Ney. The time is expired. Before we move on--we 
are going to recognize Mr. Watt--I just wanted to note for the 
committee members, we want to thank Jim Shuman, he is sitting 
right there in the blue tie, from FEMA; he has been a 
Congressional liaison to this committee, and Friday is his last 
day. And we all want to thank you for your hard work. I don't 
know what you are going to be moving on to, but whatever you 
are doing, thank you for all your hard work.
    Mr. Shuman. Thank you, Mr. Chairman.
    Chairman Ney. And also, we are going to go to Mr. Watt, and 
then we will be finished.
    I do want to reiterate also to the committee members--and I 
want to thank Mr. Garrett for coming and addressing this 
situation. One way or another somebody from HUD is going to 
come here next week, not in January at the end, but next week, 
one way or the other somebody is coming here from HUD. I just 
want to assure you here on behalf of Chairman Oxley. So we can 
do it the easy way or the hard way, but one way or another 
somebody will come and answer questions. And again, I have 
talked to Secretary Jackson, and he has stated he was going to 
be coming. So I just want to make sure that that is followed up 
on and to assure you of that.
    And with that, we will go on to Mr. Watt.
    Mr. Watt. Thank you, Mr. Chairman.
    Mr. Garrett, I am Congressman Mel Watt. I happen to be the 
Chair of the Congressional Black Caucus. I am not on this 
subcommittee, and I want to thank the chairman for allowing me 
to ask a few questions and make a few comments.
    Perhaps the face of this disaster, Hurricane Katrina, was 
disproportionately black, and because it is disproportionately 
poor, and perhaps you are wondering whether the face of this 
committee this morning is disproportionately African American. 
I guarantee you, all these chairs are occupied by folks who are 
Members of Congress. We don't represent 80 to 90 percent of the 
committee, as you have seen 80 or 90 percent of the questioners 
here this morning. And there is probably nobody in America who 
would be more justified in taking out and venting against FEMA 
than me, as the Chair of the Congressional Black Caucus, 
because there has been a lot of horror stories. And I have 
passed up multiple opportunities to slam FEMA, so I am not here 
to slam you. I am not going to take advantage of this 
opportunity today to slam FEMA. I got some real tough 
questions.
    And part of what you are hearing is frustration because we 
can't get any answers, except whatever is convenient to be said 
at the given time. I happened to be in a meeting with the 
President of the United States yesterday, and if I listened to 
what the President told me in that meeting everything at FEMA 
is going well. It was like day yesterday and night today, 
because everything obviously is not going well. And that is the 
global thing. I want to bring it home for a little bit, not 
playing my national role, but to my own State of North 
Carolina, where I have in front of me a summary of Charlotte, 
North Carolina. I got the names of the individuals who are 
staying at the AmeriSuites, the Marriott Executive Hotels, 
Staybridge Conference Suites, Extended Stay, Glen Haven; 43 
people at just those hotels. And we are told this morning that 
as of December 5, 2005, 194 hotel rooms are being occupied just 
in Charlotte, North Carolina. And I also represent Greensboro, 
Winston-Salem, and a number of other cities that have evacuees.
    Now, we also were told this morning that this extended 
extension beyond December 15th to March 1st--everybody's 
concerned about that--applies to only 10 States, am I correct 
about that?
    Mr. Garrett. The extension is to January 7th, and yes, it 
only applies to 10 States.
    Mr. Watt. And that North Carolina is not one of those 
States; is that correct?
    Mr. Garrett. That is correct, sir.
    Mr. Watt. So I have 194 hotel rooms just in one city in my 
congressional district, and I have the names of the people and 
I have the record of the churches that have been working with 
them, they have been courageous and wonderful in working with 
these people. And they called me just as a last resort, and I 
don't know what to tell them, Mr. Garrett, because they don't--
I don't know what to tell the churches because--and they don't 
know what to tell these people about where they are going, and 
I need your help.
    What would you have me say to those people?
    Mr. Garrett. Pick up the phone, call FEMA's 1-800 number, 
tell FEMA that you are in a hotel, that you have not received 
any assistance from FEMA, if that is the case--
    Mr. Watt. No, no, no. These people are receiving assistance 
from FEMA now. I just told you they are staying in a hotel, 
FEMA is paying the bill. But you just told me that as of what 
date?
    Mr. Garrett. I was referring to our individual assistance 
program, sir, versus the program under which they are being 
billeted in those hotels right now. That is a program that we 
are providing to individuals through a--
    Mr. Watt. Well, through what date? I mean, these people 
have been told that they will have to evacuate the hotels on 
December 15th.
    Mr. Garrett. They don't need to evacuate the hotels on 
December 15th, sir. On December 15th FEMA will cease paying the 
subsidies for their stays in the hotel. At that point, it will 
be their responsibility--
    Mr. Watt. Well, what does that mean to somebody who doesn't 
have a dime in their pocket, Mr. Garrett, other than you have 
to evacuate the hotel?
    Mr. Garrett. That they, at this point, shouldn't wait until 
December 15th, they should pick up the phone right now. If they 
don't have a dime in their pocket, they should contact FEMA. If 
they haven't registered with FEMA yet, they need to register. 
If they have registered with FEMA and they haven't received--
    Mr. Watt. They have done all of that, I guarantee you. 
There are individual volunteers from churches who are working 
with these people and they have done that, and they don't have 
anywhere to go on December 15th. What is it that I am supposed 
to tell them?
    Mr. Garrett. If they have--
    Mr. Watt. Call the 1-800 number after you are standing on 
the balcony of the hotel?
    Mr. Garrett. Call it right now, sir, call--
    Mr. Watt. They have already done that, Mr. Garrett, they 
don't have any place to go.
    Mr. Garrett. We are prepared, if these individuals have not 
yet received rental assistance from FEMA, if they have--
    Mr. Watt. And if they have?
    Mr. Garrett. Then they will be responsible for using that 
rental assistance to take over their hotel and motel bills. 
That is what that rental assistance is for. Ideally they would 
use that for an apartment, but if they don't--
    Mr. Watt. Well, I haven't even mentioned the people who are 
staying in apartments, I just focused on the--they are having 
the same set of issues here. When do they have to get out?
    Mr. Garrett. Individuals in apartments?
    Mr. Watt. March 1st?
    Mr. Garrett. They don't have to get out on March 1st. March 
1st is when we will complete--or hope to complete the 
conversion from a State--subsidized through the States and 
locals to having individuals responsible for that because they 
will be receiving individual assistance.
    Mr. Watt. Wait a minute. I thought you already terminated 
North Carolina before that. What did you terminate? I don't 
understand--
    Mr. Garrett. December 15th, sir. That was the date that we 
stop doing the hotel-motel subsidy.
    Mr. Watt. For North Carolina?
    Mr. Garrett. Yes, sir.
    Chairman Ney. The time is expired, but I would like to ask 
for a clarification. You might want to--
    Mr. Watt. I am trying to get a clarification. Maybe you can 
ask the question more clearly than I am asking it. I am missing 
something here.
    Chairman Ney. Just to get down to a point. Okay. If you 
were HUD assisted--let's just focus on who is in these rooms. 
If you are HUD assisted, you are taken care of. You are 
probably not in a hotel room if you are HUD assisted.
    Mr. Garratt. Or you are in that hotel room until you are 
HUD assisted. Once you make a determination that you are a HUD 
referral, we will refer that individual to HUD, tell that 
individual to contact HUD and begin working with HUD.
    Chairman Ney. But if you were in Section 8 prior to this 
disaster, you were HUD-assisted. You naturally would have your 
voucher and, if you could find a place, be able to go to it. 
All right.
    Of the other people who are in there, if you owned a home 
and you are in this hotel, you get $26,200, if you owned a 
home?
    Mr. Garratt. You can potentially get up to $26,200.
    Chairman Ney. Now, is there another category of people, a 
mom and three kids who didn't own a home, were not HUD-assisted 
Section 8, but had rented an apartment? What happens to that 
group of people?
    Mr. Garratt. They are eligible for rental assistance, 
certainly, sir. So they are eligible to get rental assistance 
at the fair market rent, and they are eligible to get that in 
3-month increments.
    Chairman Ney. To pay to the hotel?
    Mr. Garratt. Or ideally to pay to an apartment.
    Chairman Ney. But let me ask a question. We know they are 
HUD-assisted. We know that people who live in that hotel room 
now get $26,200, and they don't technically have to leave on 
that date, but they would have to start into the $26,200 to 
pay.
    Now, is there another category of people though who were 
not on Section 8 but were the working poor, barely making it 
and were living in an apartment. Do they right now have the 
resources to pay, if FEMA says we are not going to pay anymore 
to the hotel tomorrow morning, do those individuals in the 
checking account have some money from the United States 
Government, FEMA or HUD, to pay that hotel room?
    Mr. Garratt. If they do not have that yet, that is why we 
urge them to pick up the phone and call FEMA right now, is 
because if they don't have it and they are eligible for it--and 
the family you just discussed would be eligible for it
    Chairman Ney. I don't want to take more time. Who is 
eligible for it?
    Mr. Garratt. Renters and homeowners are eligible for it, 
unless the homeowner had insurance that covered alternative 
housing.
    Chairman Ney. Say they are renters. Are they eligible based 
on income? Are they eligible just to get it? And how long would 
it take them to get it? I think this is probably--
    Mr. Watt. Is there some written description of these 
various categories somewhere?
    Mr. Garratt. Yes, there is, sir.
    Mr. Watt. I beg of you, my office, we need to know what to 
tell these people, and I can't tell these people to call a 1-
800 number, Mr. Garratt. That is not a sufficient response for 
a Member of Congress to tell to volunteers from churches who 
have been working with these individual people throughout the 
process, who obviously they don't understand what the various 
alternatives are either, because they have called me after 
having worked--this is the 101st day. We have had people in 
Charlotte now for almost 90 days, and they have been matched up 
with volunteers. These people have tried to figure it out. Now 
they are calling me and saying okay, what do we do on December 
15th? And I don't know what to tell them. So if you will give 
me a description of these.
    The other thing I need you to give me is not a 1-800 number 
but somebody down in North Carolina that I can talk to, that my 
staff can talk to, to try to help these people. These are 
people out there, and now, even though they don't vote for me--
we hope they are going to vote--if we ever give--maintain the 
right for them to vote in Louisiana or Mississippi or wherever 
they were evacuated from--even though they don't vote for me, 
they are now my constituents while they are in my Congressional 
district.
    That is why I have the individuals--I mean, this is not a 
theoretical policy discussion that I am having with you, Mr. 
Garratt. These are about the lives of Walter Williams and 
Jerome Williams and the list of people who I have here in front 
of me who, on December 15th, don't know where they are going.
    By the end of the day, just give me a description of these 
various categories and a contact in North Carolina that we can 
access to try to work to help these people.
    Chairman Ney. If you could provide that, and also please, 
again, any information provided to individual members, provide 
to the committee, so we will be able to disseminate it.
    I want to note that some members may have additional 
questions, of course, that the panel may want to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for members to submit written questions for these 
witnesses and for them to place their response in the record.
    I appreciate the members' time for an important topic.
    And I also want to thank you, Mr. Garratt, for coming here 
to address these questions.
    Mr. Garratt. Thank you, Chairman Ney.
    [Whereupon, at 1:03 p.m., the subcommittee was adjourned.]


                            A P P E N D I X



                            December 8, 2005


[GRAPHIC] [TIFF OMITTED] T6753.001

[GRAPHIC] [TIFF OMITTED] T6753.002

[GRAPHIC] [TIFF OMITTED] T6753.003

[GRAPHIC] [TIFF OMITTED] T6753.004

[GRAPHIC] [TIFF OMITTED] T6753.005

[GRAPHIC] [TIFF OMITTED] T6753.006

[GRAPHIC] [TIFF OMITTED] T6753.007

[GRAPHIC] [TIFF OMITTED] T6753.008

[GRAPHIC] [TIFF OMITTED] T6753.009

[GRAPHIC] [TIFF OMITTED] T6753.010

[GRAPHIC] [TIFF OMITTED] T6753.011

[GRAPHIC] [TIFF OMITTED] T6753.012

[GRAPHIC] [TIFF OMITTED] T6753.013

[GRAPHIC] [TIFF OMITTED] T6753.014

[GRAPHIC] [TIFF OMITTED] T6753.015

[GRAPHIC] [TIFF OMITTED] T6753.016

[GRAPHIC] [TIFF OMITTED] T6753.017

[GRAPHIC] [TIFF OMITTED] T6753.018

[GRAPHIC] [TIFF OMITTED] T6753.019

[GRAPHIC] [TIFF OMITTED] T6753.020

[GRAPHIC] [TIFF OMITTED] T6753.021

[GRAPHIC] [TIFF OMITTED] T6753.022

[GRAPHIC] [TIFF OMITTED] T6753.023

[GRAPHIC] [TIFF OMITTED] T6753.024

[GRAPHIC] [TIFF OMITTED] T6753.025

[GRAPHIC] [TIFF OMITTED] T6753.026

[GRAPHIC] [TIFF OMITTED] T6753.027

[GRAPHIC] [TIFF OMITTED] T6753.028

[GRAPHIC] [TIFF OMITTED] T6753.029

[GRAPHIC] [TIFF OMITTED] T6753.030

[GRAPHIC] [TIFF OMITTED] T6753.031

[GRAPHIC] [TIFF OMITTED] T6753.032

[GRAPHIC] [TIFF OMITTED] T6753.033

[GRAPHIC] [TIFF OMITTED] T6753.034

[GRAPHIC] [TIFF OMITTED] T6753.035

[GRAPHIC] [TIFF OMITTED] T6753.036

[GRAPHIC] [TIFF OMITTED] T6753.037

[GRAPHIC] [TIFF OMITTED] T6753.038

[GRAPHIC] [TIFF OMITTED] T6753.039

[GRAPHIC] [TIFF OMITTED] T6753.040

[GRAPHIC] [TIFF OMITTED] T6753.041


</pre></body></html>
